<html>
<title> - THE IRS TARGETING INVESTIGATION: WHAT IS THE ADMINISTRATION DOING?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   THE IRS TARGETING INVESTIGATION: WHAT IS THE ADMINISTRATION DOING?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2014

                               __________

                           Serial No. 113-85

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
87-094                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 6, 2013.................................     1

                               WITNESSES

Ms. Catherine Engelbrecht, Founder, King Street Patriots
    Oral Statement...............................................     6
    Written Statement............................................     9
Ms. Cleta Mitchell, Partner, Foley & Lardner LLP
    Oral Statement...............................................    15
    Written Statement............................................    18
Ms. Becky Gerritson, Founder and President, Wetumpka Tea Party, 
  Inc.
    Oral Statement...............................................    65
    Written Statement............................................    67
Mr. Jay Sekulow, Chief Counsel, American Center for Law and 
  Justice
    Oral Statement...............................................    71
    Written Statement............................................    72

                                APPENDIX

Rep. Cartwright submitted for the record responses from Prof. 
  Green and Prof. Richman........................................   120
Chairman Jordan submitted for the record, Dept. of Justice CFR 
  45.2...........................................................   126
Chairman Jordan submitted for the record a letter to IRS 
  Commissioner Koskinen..........................................   127
Rep. Connolly submitted for the record an OSHA Inspection report.   143
Rep. Duckworth submitted for the record a letter from the Dept of 
  Justice to Chairman Issa and Jordan............................   161
Rep. Duckworth submitted for the record, correspondence from Rep. 
  Cummings.......................................................   165
Rep. Poe submitted for the record a letter to U.S. Atty. General 
  Holder.........................................................   190
Rep. Turner, Statement for the record............................   193
Rep. Paul Gosar, Opening Statement...............................   195


   THE IRS TARGETING INVESTIGATION: WHAT IS THE ADMINISTRATION DOING?

                              ----------                              


                       Thursday, February 6, 2014

                  House of Representatives,
Subcommittee on Economic Growth, Job Creation, and 
                                Regulatory Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:36 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the subcommittee] presiding.
    Present: Representatives Jordan, DeSantis, Gosar, 
DesJarlais, Meadows, Bentivolio, Cartwright, Duckworth, 
Connolly, Horsford, and Cummings.
    Also Present: Representatives Gowdy and Poe.
    Staff Present: Will L. Boyington, Deputy Press Secretary; 
Molly Boyl, Deputy General Counsel and Parliamentarian; 
Lawrence J. Brady, Staff Director; David Brewer, Senior 
Counsel; Drew Colliatie, Professional Staff Member; John 
Cuaderes, Deputy Staff Director; Adam P. Fromm, Director of 
Member Services and Committee Operations; Linda Good, Chief 
Clerk; Tyler Grimm, Senior Professional Staff Member; 
Christopher Hixon, Chief Counsel for Oversight; Michael R. 
Kiko, Legislative Assistant; Mark D. Marin, Deputy Staff 
Director for Oversight; Katy Rother, Counsel; Laura L. Rush, 
Deputy Chief Clerk; Sarah Vance, Assistant Clerk; Rebecca 
Watkins, Communications Director; Meghan Berroya, Minority 
Counsel; Aryele Bradford, Minority Press Secretary; Jennifer 
Hoffman, Minority Communications Director; Adam Koshkin, 
Minority Research Assistant; Elisa LaNier, Minority Director of 
Operations; Juan McCullum, Minority Clerk; Dave Rapallo, 
Minority Staff Director; Daniel Roberts, Minority Staff 
Assistant/Legislative Correspondent; and Donald Sherman, 
Minority Counsel.
    Mr. Jordan. The committee will come to order.
    I want to welcome our witnesses today. You have to put up 
with a couple of opening statements from myself, Mr. 
Cartwright, maybe Mr. Cummings, and some other members. But 
then we will swear you in and get to your testimony. We want to 
hear from you just as quickly as we can.
    May 10th last year, Lois Lerner, with a planted question at 
a meeting here in town, disclosed that targeting of 
conservative groups took place. She disclosed that even before 
the Inspector General's report was released. She did that after 
consulting with the chief of staff at the Treasury Department, 
put him on notice that they were going to do it this way, get 
out in front of this story.
    And she said this. I just want to read from Ms. Lerner's 
comments. She disclosed that systematic targeting of Tea Party 
groups, conservative groups had taken place, and she said, 
``They used names like Tea Party or Patriots, and they selected 
cases simply because the applications had those names in the 
title. That was wrong. That was absolutely incorrect, 
insensitive, inappropriate. This additional scrutiny not only 
delayed the processing of their applications for a period of 
years, but also resulted in intrusive questions from the IRS 
that were far beyond the scope of legitimate inquiry.''
    That's Lois Lerner's statement. She admitted right when 
this thing first broke that people were targeted based on their 
conservative beliefs and delayed for years in getting their 
tax-exempt status.
    Attorney General Holder said this was outrageous and 
unacceptable. The President said, we will not tolerate this 
kind of behavior in any agency. But 1 month after that, in a 
hearing in front of the Judiciary Committee, then FBI Director 
Mueller was asked a few questions. In fact, I asked him three 
questions. I said, ``Director Mueller, can you tell me who the 
lead agent is in the case? Can you tell me how many agents you 
have assigned to the case? And can you tell me if you have 
interviewed any of the victims?''
    His answer to those three questions: I don't know. I don't 
know. I don't know. Not exactly inspiring much confidence in 
the type of investigation the FBI and the Justice Department 
were engaged in.
    Just recently, we learned that the person heading the 
investigation, Barbara Bosserman, gave $6,750 to the Obama 
campaign and to the Democrat National Committee. She is the 
person heading the investigation. Again, we learned this not 
because the FBI told us, not because the Justice Department 
told us. Current and former IRS employees who have been 
interviewed in the course of the administration's investigation 
told us that she was the one leading the investigation and 
asking the questions.
    A lady with a financial stake in a specific outcome is 
heading the investigation, a lady who has invested in the 
President's success is heading the investigation and the 
President could potentially be a target of that investigation, 
and we are supposed to believe this investigation is credible.
    We invited Ms. Bosserman to come today. We wanted her to be 
sitting there with the people who were victimized by the IRS. I 
sent two letters. Mrs. Bosserman didn't respond back to me. 
Instead, Mr. Cole, deputy assistant attorney general, did. In 
fact, he sent me two letters within 5 days. Within the last 10 
days we got those letters. In fact, Mr. Cole was in front of 
the Judiciary Committee just 2 days ago and I had a chance to 
question him and ask him those same three questions. Can you 
tell me who the lead agent is? You say it is a team, and not 
Ms. Bosserman, as we understand it to be. Can you tell me who 
is on the team? Can you tell me if you interviewed any of the 
victims? And his answers were the same as Mr. Mueller's clear 
back in the summer of 2013.
    In those two letters Mr. Cole said that this was an ongoing 
investigation. In fact, he said it seven times, ongoing 
investigation. And yet, to my knowledge, no victims have been 
interviewed by the FBI or the Justice Department. Ongoing 
investigation, and yet the Wall Street Journal through leaked 
sources has reported that no one is going to be recommended for 
prosecution. Ongoing investigation, and yet the President of 
the United States can go on national television on a day when a 
lot of people watch television, and say, ``There is not a 
smidgeon of corruption in the IRS targeting scandal.''
    So here we are today. Ms. Bosserman won't come. The FBI 
won't answer any questions. The President said it is over. The 
Wall Street Journal reports that it is over. So we thought what 
we would do today is allow people who were victimized by the 
Internal Revenue Service to come tell their story.
    The FBI may not want to interview you, Ms. Engelbrecht and 
Ms. Gerritson, but this committee does. Our witnesses these 
morning, Catherine Engelbrecht and Becky Gerritson, experienced 
the IRS targeting firsthand in the course of trying to exercise 
their First Amendment rights to make our country a better place 
for their neighbors and friends. They were harassed at the 
hands of their very government. In addition to the IRS, Ms. 
Engelbrecht was scrutinized by the FBI, the Bureau of Alcohol, 
Tobacco and Firearms, and OSHA.
    Ms. Engelbrecht and Ms. Gerritson, we recognize and we 
deeply appreciate the courage that it takes for you to come 
here and testify today. Both Ms. Engelbrecht and Ms. Gerritson 
have also counsel present with them today, Ms. Cleta Mitchell 
and Mr. Jay Sekulow. These fine attorneys are also experts in 
the nonprofit field and represent dozens of clients that were 
mistreated by the Internal Revenue Service. In this capacity 
they will be able to shed light on the process and the 
abnormalities of the treatment faced by conservative groups.
    Hopefully this morning's hearing advances the committee's 
interest in getting closer to the truth, which is when I am out 
and about Ohio and across the country, I get that question more 
than anything else. We want to know the truth, and we want 
people held accountable. I get it all the time. Is that going 
to happen? And I tell those people, we are going to do 
everything we can to get to the truth and hold people 
accountable.
    And here is why it is so important. I will finish here and 
recognize Mr. Cartwright. When the Founders put together the 
First Amendment and all of the rights that are contained--
freedom of religion, freedom of press, freedom of assembly, 
freedom of speech--when they talked about freedom of speech, 
the most important aspect of freedom of speech is your right to 
political speech, your right to criticize your government. And 
that is the very thing that the IRS attacked. And that is why 
this hearing and this subject is so important, and that's why 
I'm pleased to have the witnesses we have with us today.
    With that, I would yield to the ranking member, Mr. 
Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    As I have noted in previous hearings of this committee, I 
also am deeply troubled regarding IRS employees' improper 
handling of applications for tax-exempt status, a handling that 
pervades the American political spectrum and includes, 
obviously, right-wing groups and also left-wing groups, and we 
will talk about that in a moment. But since the chairman has 
just raised it, including allegations about attorney Barbara 
Bosserman, I want to address that right away.
    Part of the premise of this hearing, as I understand it, is 
that Chairman Jordan and the witnesses have concerns about the 
Department of Justice's investigation of the IRS for the 
improper treatment of tax-exempt organizations. Chairman Jordan 
has claimed that the investigation has, ``the appearance of a 
substantial and material conflict of interest.'' Now, he has 
made that claim because a career prosecutor, who is one of at 
least 13 DOJ and FBI employees involved in the investigation, 
made political donations to the DNC and the President's 
campaign.
    But I'm here to tell you, we have consulted with legal 
experts, and they have flatly rejected Chairman Jordan's 
interpretation of the law. One such expert is Professor Bruce 
Green of Fordham University Law School, who for the last 27 
years has taught courses relating to legal ethics and criminal 
law and procedure, including a seminar on ethics in criminal 
advocacy. Professor Green also served as associate counsel in 
the office of Independent Counsel Lawrence Walsh, who 
prosecuted individuals during the Iran-Contra affair and later 
served as an appointee of then New York City Mayor Rudy 
Giuliani to the New York City Conflicts of Interest Board.
    Professor Green explained that under the prevailing legal 
and ethical understandings, ``This scenario does not constitute 
a conflict of interest.'' Professor Green added more pointedly, 
``A career prosecutor assigned to investigate a Federal 
official would not have a conflict of interest simply because 
the prosecutor contributed to one or the other party or to one 
or the other presidential candidate.''
    Professor Green furthermore explained, quote, ``Because 
political donations are not a relevant consideration in making 
assignments, that is, case assignments, it would not be 
appropriate for the Department of Justice leadership to check 
career prosecutors' political donations before assigning them 
to an investigation.''
    I ask unanimous consent to enter the responses from 
Professor Green, as well as the statement of Columbia 
University Professor Daniel Richman, into the record.
    Mr. Jordan. Without objection.
    Mr. Cartwright. And I would remind committee members that 
the Hatch Act is within this committee's jurisdiction, and that 
in it Congress explicitly states, ``It is the policy of 
Congress that employees should be encouraged to exercise fully, 
freely, and without fear of penalty or reprisal, and to the 
extent not expressly prohibited by law, their right to 
participate or to refrain from participating in the political 
processes of this Nation.''
    Calling this line attorney, not a political appointee, but 
a career civil servant, in to testify in public about an 
ongoing investigation and to accuse her of being politically 
biased because she was exercising her right to participate in 
the democratic process of this Nation is unacceptable.
    I will be happy to hear from the appropriate person at the 
Department of Justice after the investigation is completed. And 
I thank you, Mr. Chairman, and I yield back.
    Mr. Jordan. I thank the gentleman.
    I would also ask unanimous consent to put into the record 
28 CFR 45.2, Disqualification Arising from Personal or 
Political Relations from the Department of Justice of Ethical 
Rules. I will just quote before entering it into the record: 
``The employee's participation should not create an appearance 
of a conflict of interest likely to affect the public 
perception of the integrity of the investigation or 
prosecution.''
    I would just remind my friend from Pennsylvania that it 
says, ``likely to affect the public perception of the 
integrity.'' Significantly less than 1 percent of the 
population contributes that kind of money to a political 
campaign. There are 10,000 employees of the Justice Department. 
You would think they could find someone else, and you would 
think Ms. Bosserman would look at this and say, you know what, 
maybe I should recuse myself and not head up an investigation.
    So I would ask that this be entered into the record as 
well.
    Mr. Cartwright. Without objection.
    Mr. Jordan. And would now call on the gentleman from Texas, 
Mr. Poe--I need to do another unanimous consent--that our 
colleague from Texas, Mr. Poe, be allowed to participate in 
today's hearing.
    Mr. Cartwright. Without objection.
    Mr. Jordan. So ordered. And Mr. Poe is recognized.
    Mr. Poe. Thank the chairman.
    Catherine Engelbrecht is a friend of mine from Houston, and 
King Street Patriots is in my district. I have come to know her 
because her and her husband are small business owners. They are 
just trying to make a living in America.
    And she started King Street Patriots, and she also started 
True The Vote because she was very concerned about voter 
corruption in Texas. She found it through the use of public 
records. And so she started those two programs, a citizen 
active. As soon as she gets active in these two programs, 
primarily True The Vote, trying to make our voter process fair, 
with integrity, she gets harassed by the Federal Government of 
the United States.
    Harassment, what does that mean? First, the FBI came to see 
her; questioned her about some of the people that are attending 
her meetings. And she had numerous meetings with the FBI, 
including the fact that the FBI would sit in the King Street 
Patriot meetings. But that wasn't all. She was visited OSHA. 
She was visited by the EPA, or the Texas equivalent to the EPA 
doing an investigation. She was visited by the ATF, and 
harassed by the ATF. And of course she was harassed by the IRS 
on numerous occasions.
    All she wanted was what every other organization that is 
trying to exercise the First Amendment wants and deserves, is a 
tax exempt. And because of that, as the chairman has said, the 
right to exercise the First Amendment is there primarily so 
that citizens can criticize government and not be afraid of 
government harassing them through their use of government 
administrative bureaucrats. All of these things happened to 
her. FBI, OSHA, EPA, ATF, IRS harassed her because of 
exercising her First Amendment right.
    And I appreciate the fact that the witnesses are here to 
tell us how government oppressed them for exercising that. And 
I will yield back to the chairman. Thank you.
    Mr. Jordan. Anyone else? All righty, we will move to our 
witnesses. We have with us today Ms. Catherine Engelbrecht, is 
the founder of the King Street Patriots and True The Vote. Ms. 
Cleta Mitchell is a partner in Foley & Lardner, and Ms. Becky 
Gerritson, is president of the Wetumpka TEA Party, and Mr. Jay 
Sekulow, chief counsel of the American Center for Law and 
Justice.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So will you please stand up, raise your 
right hand? Do you solemnly swear or affirm that the testimony 
you are about to give will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record reflect the witnesses answered in the 
affirmative.
    I think you know how this works. You get approximately 5 
minutes to make your statement, and we will be a little bit 
flexible with that. But, Ms. Engelbrecht, we will go right down 
the line. So we will start with you, Catherine, and you are 
recognized.

                       WITNESS STATEMENTS

              STATEMENT OF CATHERINE ENGELBRECHT 

    Ms. Engelbrecht. Thank you so much, Mr. Chairman, members 
of the committee. My name is Catherine Engelbrecht.
    Mr. Jordan. Catherine, hit the----
    Ms. Engelbrecht. Thank you. Good morning, Mr. Chairman, 
members of the committee. My name is Catherine Engelbrecht and 
I'm the chairwoman of True The Vote, a nonprofit election 
integrity organization; the founder of King Street Patriots, a 
citizen-led liberty group; and president of Engelbrecht 
Manufacturing. Thank you for this opportunity to share my story 
with you today, though at the outset it must be said that it is 
a story with a central theme that is shared by countless 
thousands of other Americans who have not yet been heard from, 
though I pray that they will be.
    It must be made publicly known that across this country 
citizens just like me are being targeted by an administration 
willing to take any action necessary to silence opposition. I 
am an average American who prior to 2009 had never been active 
in the processes of government, but after volunteering to work 
in the polls in Texas in the 2009 elections, I saw fundamental 
procedural problems that I felt couldn't go unaddressed. So I 
started True The Vote, an organization that grew into a 
national movement to ensure that every American voter has an 
opportunity to participate in elections that are free and fair.
    My life before I got involved and spoke out for good 
government stands in stark contrast to the life I now lead. As 
a wife, a mother, a small business woman working with my 
husband, raising our children, and participating in my church 
and PTA, the government collected my taxes and left me and my 
family in peace. But once I helped found True The Vote and King 
Street Patriots I found myself a target of this Federal 
Government.
    Shortly after filing IRS forms to establish 501(c)(3) and 
(c)(4) tax-exempt organizations, an assortment of Federal 
entities, including law enforcement agencies and Congressman 
Cummings, came knocking at my door. In nearly two decades of 
running our small business my husband and I never dealt with 
any government agency outside of filing our annual tax returns. 
We had never been audited. We had never been investigated. But 
all that changed upon submitting applications for the nonprofit 
statuses of True The Vote and King Street.
    Since that filling in 2010, my private businesses, my 
nonprofit organizations, my family, and I have been subjected 
to more than 15 instances of audit or inquiry by Federal 
agencies. In 2011 my personal and business tax returns were 
audited by the Internal Revenue Service, each audit going back 
for a number of years. In 2012, my business was subjected to 
inspection by OSHA on a select occasion when neither my husband 
or I were present, and though the agency wrote that it found 
nothing serious or significant, it still issued fines in excess 
of $20,000.
    In 2012 and again in 2013, the Bureau of Alcohol, Tobacco 
and Firearms conducted comprehensive audits at my place of 
business, and beginning in 2010 the FBI contacted my nonprofit 
organization on six separate occasions wanting to cull through 
membership manifests in conjunction with domestic terrorism 
cases. They eventually dropped all matters and have now 
redacted nearly all my files.
    All of these incursions into my affairs began after filing 
applications for tax exemption. There is no other remarkable 
event. There is no other reason to explain how for decades I 
went unnoticed, but now find myself on the receiving end of 
interagency coordination into and against all facets of my 
life, both personal and private.
    Bear in mind, distinguished ladies and gentlemen of this 
subcommittee, these events were occurring while the IRS was 
subjecting me to multiple rounds of abusive inquiry with 
requests to provide every Facebook and Twitter I had ever 
posted, questions about my political aspirations, and demands 
to know the names of groups that I had spoken with, the content 
of what I had said, and everywhere I intended to speak in the 
coming year.
    The answers to these sorts of questions are not of interest 
to the typical IRS analyst, but they are certainly of interest 
to a political machine that would put its own survival against 
the civil liberties of a private citizen.
    This government attacked me because of my political 
beliefs, but I refuse to be cast as a victim; not to the IRS; 
not to the FBI; not to OSHA; not to the Bureau of Alcohol, 
Tobacco and Firearms, or to any other government agency. I am 
not a victim, because a victim has no options. I do have 
options. And I intend to use them to the fullest extent of my 
capabilities.
    As an American citizen I am part of a country that still 
believes in freedom of speech, and so I will continue to speak 
out. Here in Congress and all across this country, I will 
continue to press in every legal way possible, as I did by 
filing suit against the Internal Revenue Service. No American 
citizen should be willing to accept a government that uses its 
power against its own people.
    After all of the tyranny and all of the things that have 
been to my organizations, to my family, and to me, many people 
would quit. And, Mr. Chairman, many Americans have quit. I have 
heard over and over that people are afraid to tell their 
stories. But know this: My experience at the hands of this 
government in the last 5 years have made me more determined 
ever than before to stand before you and to all of America and 
say that I will not retreat, I will not surrender, I will not 
be intimidated, and I will not ask for permission to exercise 
my constitutional rights.
    I come before you today, Mr. Chairman, on behalf of 
Americans just like me asking for a solution to end this ugly 
chapter of political intimidation. There was a time when people 
of goodwill were encouraged to participate in the processes of 
government, not targeted because of it.
    I applaud your request of the Internal Revenue Service to 
withdraw a proposed regulation limiting political speech by 
nonprofit organizations. That action should be taken quickly 
and without fail, because if it is not, it will effectively 
codify into law the very thing that brings me here today. If 
those regulations pass, nonprofit organizations across the 
country will be destroyed. No American, regardless of their 
political affiliation, should support the silencing of 
political speech.
    Beyond ending the proposed IRS regulations, I ask you, I 
implore you as representatives to the people of this great 
Nation to pass a law that protects all citizens of this country 
from the increasing use of such abusive practices. Pass a law 
that exposes government officials who trample on the rights of 
ordinary citizens. Do not allow them to continue to cower 
behind a veil of secrecy, abuse, unethical and unfair behavior. 
Send the President a bill that makes public, at the option of 
persons and entities regulated, all communication between 
government agencies and those they regulate. No restricted, 
redacted, selectively release, files. Give us a truly 
transparent process. Protect the people. Restore liberty to the 
people, because we will not be silenced.
    Thank you for this opportunity, Mr. Chairman, and the 
committee's members.
    Mr. Jordan. Thank you, Ms. Engelbrecht.
    [Prepared statement of Ms. Engelbrecht follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.001
    
    [GRAPHIC] [TIFF OMITTED] T7094.002
    
    [GRAPHIC] [TIFF OMITTED] T7094.003
    
    [GRAPHIC] [TIFF OMITTED] T7094.004
    
    [GRAPHIC] [TIFF OMITTED] T7094.005
    
    [GRAPHIC] [TIFF OMITTED] T7094.006
    
    Mr. Jordan. And God bless you. And again, we appreciate you 
being here today.
    You referenced a proposed rule. I would like to enter into 
the record a letter that Chairman Issa and I sent to the new 
Commissioner of the IRS, John Koskinen, 2 days ago, where we 
highlight some of the things you have referenced in your 
testimony; specifically, how this rule was being prepared long 
before the TIGTA report came into existence and how Lois Lerner 
was integrally involved in putting this rule together. And so I 
would ask, with unanimous consent, to enter this into the 
record. Without objection that will take place.
    Ms. Mitchell, you are now recognized.

                  STATEMENT OF CLETA MITCHELL

    Ms. Mitchell. Thank you, Mr. Chairman, members of the 
subcommittee, thank you very much for the opportunity to appear 
here today.
    I'm a practicing attorney, and I deal with the IRS and have 
dealt with the IRS on a daily basis for many, many years. What 
I do is I help people obtain the tax-exempt status or to fit 
their activities within the proper section of the Tax Code 
depending on what it is they want to do. I want to make three 
primary points here today. I will be happy to answer questions 
at the appropriate time.
    First, the IRS scandal is real. It's not pretend. It's 
real. Number two, the IRS scandal is not just a boneheaded 
bunch of bureaucrats in some remote office, contrary to what 
the President of the United States told the American people on 
Sunday. And number three, the IRS scandal is not over. It is 
continuing to this day, and the Department of Justice 
investigation is a sham. It is a nonexistent investigation.
    With regard to point number one, let me tell you in one 
sentence what the IRS scandal is. The IRS, at the direction of 
some political elites in Washington, not in Cincinnati, but 
Washington, took what had been for decades a process of 
reviewing applications for exempt status that for a 501(c)(4) 
organization could be expected to take 3 to 4 weeks. And they 
converted that process into one that took 3 to 4 years and in 
some cases is still not over.
    Number two, the line agents in the IRS had their work 
disrupted and halted by Washington. In 2010, True The Vote 
filed its application for (c)(3) status and did not obtain that 
(c)(3) until we sued the IRS. So in September they granted it. 
People shouldn't have to sue to get their tax-exempt status.
    And when Lois Lerner and President Obama accused line 
agents in Cincinnati of being responsible, ladies and 
gentlemen, that is a lie. And I knew when Lois Lerner said that 
in May of 2010, when she admitted that it was happening, after 
we knew it was happening, it is sort of like we knew we were 
targeted, it's just that she finally admitted it, but I knew it 
hadn't happened in Cincinnati because the first time I really 
became aware of this was with a group that I represent. We 
filed for tax-exempt status in October of 2009. And besides 
cashing our check for our filing fee, we did not hear from the 
IRS again until June of 2010. And we didn't hear from 
Cincinnati; we heard from Washington.
    That group did one thing. It lobbied against Obamacare in 
the fall of 2009 and the spring of 2010, something that a 
501(c)(4) organization is permitted to spend 100 percent of its 
program expenditures doing. We did not get the tax-exempt 
status for that organization until July of 2013.
    When I took on the representation of Catherine Engelbrecht 
and her two organizations in the fall of 2011, this is now a 
year after she has sent her application to the IRS, and she has 
heard nothing, and when I talked to the assigned agent in 
Cincinnati in October of 2011, saying we are going to 
supplement the application to try to help make it easier for 
you to process, he told me at the time, oh, there's a task 
force in Washington, we can't do anything until we hear back 
from Washington.
    Number three, this scandal is not over. The lying has not 
stopped. I represent one Tea Party group, Tea Party Patriots, 
who applied in December of 2010. They still don't have their 
(c)(4) status. There are lies upon lies in this ugly episode. 
The Commissioner of the IRS lied to Congress, lied, I believe 
it was this committee in March of 2012, or April of 2012, when 
he said there was no targeting.
    How many communications from the IRS to Members of Congress 
who inquired about the status of applications and whether there 
was targeting, how many communications were there in which 
agents of the IRS told Congress that there was no targeting? 
Those are lies. Lying to Congress is a crime.
    The Department of Justice has refused to investigate who it 
was who was responsible for releasing the confidential tax 
information of Koch Industries to the President's economic 
advisor who, in turned, released it to the press. Or who 
released the National Organization of Marriage's tax return? I 
represent NAM. We have sued the IRS to try to get to the bottom 
of why our confidential tax information was made available to 
our political opponents.
    Where is the FBI in investigating? That is a criminal 
offense. It is a criminal offense to have also for the IRS to 
release the confidential donor information of the Texas Public 
Policy Foundation and the Republican Governors' Public Policy 
Council, conservative organizations whose donor information was 
released by the IRS. That's a criminal offense. Who is 
investigating that?
    And then finally, again, it is a felony to lie to a Federal 
agency. And yet, the IRS on the day after Thanksgiving in 
proposing these regulations, the agent from the IRS who 
transmitted those proposed regulations in the formal 
publication says that there are no related documents. That's 
what it says on the Web site: related documents, none. Yet, I 
have submitted a FOIA request on behalf of the Tea Party 
Patriots for the underlying background documents, and they 
said, we can't get you all those documents until April. The 
public comment period closes February 27th. So there are no 
documents, but it will take them until April to get them to us. 
That's a lie.
    And they also lied when they transmitted those regulations 
and said that the purpose of the regulations, the genesis was 
the TIGTA report.
    There are too many lies, Mr. Chairman. It's time to get to 
the truth. It's time for the FBI to investigate those criminal 
acts. And it's time for the IRS to cooperate as we try to get 
to the truth of why it's happened and how to make it stop. 
Thank you.
    Mr. Jordan. Thank you, Ms. Mitchell.
    [Prepared statement of Ms. Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.007
    
    [GRAPHIC] [TIFF OMITTED] T7094.008
    
    [GRAPHIC] [TIFF OMITTED] T7094.009
    
    [GRAPHIC] [TIFF OMITTED] T7094.010
    
    [GRAPHIC] [TIFF OMITTED] T7094.011
    
    [GRAPHIC] [TIFF OMITTED] T7094.012
    
    [GRAPHIC] [TIFF OMITTED] T7094.013
    
    [GRAPHIC] [TIFF OMITTED] T7094.014
    
    [GRAPHIC] [TIFF OMITTED] T7094.015
    
    [GRAPHIC] [TIFF OMITTED] T7094.016
    
    [GRAPHIC] [TIFF OMITTED] T7094.017
    
    [GRAPHIC] [TIFF OMITTED] T7094.018
    
    [GRAPHIC] [TIFF OMITTED] T7094.019
    
    [GRAPHIC] [TIFF OMITTED] T7094.020
    
    [GRAPHIC] [TIFF OMITTED] T7094.021
    
    [GRAPHIC] [TIFF OMITTED] T7094.022
    
    [GRAPHIC] [TIFF OMITTED] T7094.023
    
    [GRAPHIC] [TIFF OMITTED] T7094.024
    
    [GRAPHIC] [TIFF OMITTED] T7094.025
    
    [GRAPHIC] [TIFF OMITTED] T7094.026
    
    [GRAPHIC] [TIFF OMITTED] T7094.027
    
    [GRAPHIC] [TIFF OMITTED] T7094.028
    
    [GRAPHIC] [TIFF OMITTED] T7094.029
    
    [GRAPHIC] [TIFF OMITTED] T7094.030
    
    [GRAPHIC] [TIFF OMITTED] T7094.031
    
    [GRAPHIC] [TIFF OMITTED] T7094.032
    
    [GRAPHIC] [TIFF OMITTED] T7094.033
    
    [GRAPHIC] [TIFF OMITTED] T7094.034
    
    [GRAPHIC] [TIFF OMITTED] T7094.035
    
    [GRAPHIC] [TIFF OMITTED] T7094.036
    
    [GRAPHIC] [TIFF OMITTED] T7094.037
    
    [GRAPHIC] [TIFF OMITTED] T7094.038
    
    [GRAPHIC] [TIFF OMITTED] T7094.039
    
    [GRAPHIC] [TIFF OMITTED] T7094.040
    
    [GRAPHIC] [TIFF OMITTED] T7094.041
    
    [GRAPHIC] [TIFF OMITTED] T7094.042
    
    [GRAPHIC] [TIFF OMITTED] T7094.043
    
    [GRAPHIC] [TIFF OMITTED] T7094.044
    
    [GRAPHIC] [TIFF OMITTED] T7094.045
    
    [GRAPHIC] [TIFF OMITTED] T7094.046
    
    [GRAPHIC] [TIFF OMITTED] T7094.047
    
    [GRAPHIC] [TIFF OMITTED] T7094.048
    
    [GRAPHIC] [TIFF OMITTED] T7094.049
    
    [GRAPHIC] [TIFF OMITTED] T7094.050
    
    [GRAPHIC] [TIFF OMITTED] T7094.051
    
    [GRAPHIC] [TIFF OMITTED] T7094.052
    
    [GRAPHIC] [TIFF OMITTED] T7094.053
    
    Mr. Jordan. Ms. Gerritson.

                  STATEMENT OF BECKY GERRITSON

    Ms. Gerritson. Thank you so much for inviting me here to 
speak. I can't tell you how much I do appreciate you holding 
this hearing.
    Unfortunately, I'm not here to carry a message of joy or 
thanksgiving. I'm in absolute grief for my beloved country. 
Eight months ago, I along with five other victims, eloquently 
laid out our cases about the IRS abuses in a committee just 
like this. And at that hearing, we learned details about the 
IRS leaking confidential donor information to opposition 
groups. When proven, this is a felony. We learned of serious 
constitutional violations of the First and Fifth Amendments. We 
witnessed multiple violations of the Administrative Procedure 
Act, as well as violations of the Internal Revenue Code.
    Lois Lerner outright lied to the American people, blaming 
the scandal on a few rogue agents in Cincinnati, knowing full 
well that the targeting involved IRS offices across the 
country, including her very own office in Washington, D.C. Lois 
Lerner took the Fifth for a reason. Government employees don't 
go rogue en masse. Their orders originate somewhere.
    Yet even with all of these known violations of the law, no 
one has been blamed, shamed, fired, arrested, or brought to 
justice. And because of that, I have to ask, how many people in 
Congress are taking this seriously?
    Since my last testimony in Congress, I still have not been 
contacted by the FBI. The FBI told The Wall Street Journal that 
no one would be charged with a crime. Yet they haven't even 
interviewed the witnesses. Are you going to let them get away 
with this? If so, then I must say it again, my government has 
forgotten its place. It appears that many in Washington fear 
regular citizens standing up for constitutional, limited 
government.
    Why in America is it now considered a threat to our 
government to study the founding documents and to advocate for 
responsible spending? Why is giving out copies of the 
Constitution, discussing pending legislation, or even creating 
legislative score cards a threat to this administration? 
Obviously, these activities are viewed as subversive to their 
agenda. Otherwise they wouldn't have tried to stop us.
    In my previous testimony, I explained that our application 
was complete and accurate. We easily qualified for a 501(c)(4) 
status. Yet, that did not stop the IRS from demanding 
information they were not entitled to, unconstitutional 
requests that violated even their own rules.
    The information they demanded from us had nothing to do 
with our tax status. Why must the IRS know who is coming to our 
meetings? Why did they need to have copies of every speech ever 
given and the credentials of those speakers? Why did they need 
to know who our donors were? There is clearly something wrong 
with this.
    The IRS' targeting of the Wetumpka TEA Party and other 
conservative and religious groups is profoundly disturbing. I'm 
offended that a Member of Congress, of the United States 
Senate, would continually request the IRS to go after Americans 
like me because they do not agree with our values. This is 
unprecedented. Never before has the Federal Government tried to 
muzzle everyday Americans solely because of their political 
view. The governments of Third World nations intimidate and 
harass dissenting citizens. It does not happen in the land of 
the free until recently.
    It's shocking. It's pathetic. It's infuriating and 
depressing. But most troubling of all, is Congress has not 
stopped this. It's actually gotten worse. During these past 8 
months Congress has quietly sat by while the IRS has proposed 
to cover up their targeting by rewriting the rules for 
501(c)(4)s, rules which are an ardent attempt to shut us down 
completely. One of our most sacred fundamental rights in this 
country is freedom of speech, but the IRS under this 
administration wants to strike out 226 years of history with a 
keystroke.
    Under these new rules we are not allowed to use the words 
oppose, vote, support, defeat, or reject. We're not allowed to 
mention on our Web site or in any communication that would 
reach over 500 people even the name of a candidate who is 
running 30 days before a primary or 60 days before a general 
election. We are not allowed to mention the name of a political 
party if they have a candidate running for 60 days before an 
election. No more voter registration drives, no more conducting 
nonpartisan get out the vote drives, no creating or 
distributing voter guides outlining incumbents' voting records. 
We can't even host candidates for debates or forums less than 
60 days before a general election. Our officers and our leaders 
cannot speak publicly about incumbents, legislation, and/or 
voting records without jeopardizing our tax status.
    Does this sound like the land of the free or the home of 
the brave to you?
    The political targeting carried out by the IRS is a 
fundamental transformation of the America that we all grew up 
in. Like Catherine, I am not here as a victim because I refuse 
to be a victim. I am a born-free American woman, and these 
abuses of power put all Americans' liberties at risk. Our 
government is using its agencies as weapons against its own 
citizens, and history shows that unaddressed abuses of power 
lead to greater abuses of power.
    I, along with my fellow Americans, are looking to you on 
this committee to restore the faith that you really do 
represent us. We implore you to use the full force of the law 
to stop these abuses immediately and to bring to justice not 
only those who gave the orders, but all who helped carry them 
out. I want the Federal Government to know and the IRS to know 
that you will not divide us, you will not conquer us, and we 
will not be silenced.
    Thank you.
    Mr. Jordan. Thank you, Ms. Gerritson.
    [Prepared statement of Ms. Gerritson follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.054
    
    [GRAPHIC] [TIFF OMITTED] T7094.055
    
    [GRAPHIC] [TIFF OMITTED] T7094.056
    
    [GRAPHIC] [TIFF OMITTED] T7094.057
    
    Mr. Jordan. Mr. Sekulow.

                    STATEMENT OF JAY SEKULOW

    Mr. Sekulow. Chairman Jordan, Ranking Member Cartwright, 
and distinguished members of the subcommittee, on behalf of the 
American Center for Law and Justice, thank you for allowing me 
to participate in today's hearing. I represent 41 organizations 
that have filed a Federal lawsuit against the Internal Revenue 
Service. My first job out of law school, a long time ago, was 
with the Office of Chief Counsel of the IRS. I was a trial 
lawyer for Chief Counsel's Office. I'm proud of that heritage 
in my legal career. I am disappointed and dismayed with what 
the IRS is doing even today.
    I have prepared comments. I would like those to be made 
part of the record. Thank you, Mr. Chairman.
    [Prepared statement of Mr. Sekulow follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.058
    
    [GRAPHIC] [TIFF OMITTED] T7094.059
    
    [GRAPHIC] [TIFF OMITTED] T7094.060
    
    [GRAPHIC] [TIFF OMITTED] T7094.061
    
    [GRAPHIC] [TIFF OMITTED] T7094.062
    
    [GRAPHIC] [TIFF OMITTED] T7094.063
    
    [GRAPHIC] [TIFF OMITTED] T7094.064
    
    [GRAPHIC] [TIFF OMITTED] T7094.065
    
    [GRAPHIC] [TIFF OMITTED] T7094.066
    
    Mr. Sekulow. I'm going to deviate from those for a moment 
because of a recent revelation. But before I do that, Mr. 
Cartwright, I would like to give you some information about the 
progressive versus conservative groups that were targeted, and 
indeed there were some progressive groups that were put in this 
list. However, this is the IRS' own statistics through July 
29th of last year.
    One hundred and four conservative organizations, according 
to the IRS, were targeted. They were asked 1,552 questions. The 
average question per group was 15. That did not include the 
subparts. Forty-eight were approved, which is an overall 
approval rating of only 46 percent. Indeed, seven progressive 
groups somehow got caught up in this dragnet because of their 
names. They were asked a total of 33 questions, or 4.7 
questions per organization. Seven of them were approved. That's 
100 percent.
    This wasn't an equal opportunity discrimination. This was 
targeted discrimination coming from the Internal Revenue 
Service. And what I would like to address now is that our view 
is that that determination came from the highest ranks of the 
Internal Revenue Service.
    Just yesterday it was brought to the public's attention 
that an email had been sent by Lois Lerner, the former head of 
Tax Exempt. She pled the Fifth Amendment. Based on the evidence 
that came out yesterday, if I was her lawyer I would have told 
her to plead the Fifth Amendment also, and here is why.
    An email from Lois Lerner was sent, with Ruth Madrigal from 
the Office of Tax Policy, United States Department of the 
Treasury, it went to Janine Cook, deputy division counsel and 
associate chief counsel of the IRS Tax Exempt and Government 
Entities Division. It went to Victoria Judson, division 
counsel, associate chief counsel, Tax Exempt and Government 
Entities Division. It went to Nancy J. Marks, division counsel 
and associate chief counsel for Tax Exempt and Government 
Entities, and a senior advisor who conducted a probe--for 
Steven Miller, by the way--with Holly Paz into the impropriety 
months before this email.
    What was this email? It was an email that, we will work, 
``off plan to devise rules to curtail the activities of 
501(c)(4) organizations.'' Off plan. That's very different from 
saying two rogue agents in Cincinnati. So if I was Lois 
Lerner's attorney, I would have told her to plead the Fifth 
Amendment, too, because there is serious liability.
    With regard to the facts of this case, we have 41 clients. 
Late in December I was contacted by the United States 
Department of Justice, the FBI, and Ms. Bosserman was on the 
call as well. They had requested at that point that they might 
want to after the first of the year interview 3 of our 41 
clients. They said they would get back with us after the first 
of the year. They did. And about the same day they got back 
with us, of course the announcement about Ms. Bosserman's 
political contributions was made public, and that was followed 
up by a statement to The Wall Street Journal by an FBI source 
that there was indeed no criminal investigation.
    My office's comment back--and by the way, the lawyer in my 
office that is tasked with dealing with the FBI on this is a 
former assistant United States attorney--if there is no 
criminal investigation, why do you need to speak to our 
clients? No comment. They said they will not discuss the 
ongoing investigation.
    The next question, which I think is a very serious one, is 
the fact that the FBI in desiring to speak with our client, we 
raised the concern of Barbara Bosserman. And, Mr. Cartwright, 
again, with due respect, it is not because of her capabilities 
as a lawyer. I'm sure she's a fine lawyer. She's a career 
lawyer. You cited an ethics rule. And then Chairman Jordan, you 
cited the real rule. The obligation is not on the Department of 
Justice for something like this. It is on the lawyer.
    Mr. Jordan. Sure, sure. Exactly.
    Mr. Sekulow. The lawyer has to avoid the appearance of 
impropriety. And if you are heading up the investigation--and 
we are assuming she is, no one has ever been very clear on 
that--you can't head up the investigation in an impartial 
method if the public thinks there is an even potential for bias 
or an inappropriate position.
    It was very simple for the Department of Justice to solve 
this. They didn't have to go in and ask for her political 
position. She has the affirmative obligation to tell her 
supervisor, I could be compromised in this, it would be best if 
someone maybe from Public Corruption took a look at it. I'm 
just saying that for the record so that we are clear on the 
evidence.
    But what we have right now, in the few moment I have got 
left, Mr. Chairman, is----
    Mr. Jordan. She could have said that and the Department 
says, no, we want you to head the investigation. That is my 
hunch.
    Mr. Sekulow. That's why I'm saying that I don't want to 
impugn her integrity. I don't think it's fair to do that 
because I don't know what statements she made.
    Mr. Jordan. I agree. I agree.
    Mr. Sekulow. But she did have the obligation.
    But let me say this: The IRS attempt now to change the 
rules falls on two systematic problems. Number one, you don't 
get to change the rules for a post hoc justification of your 
prior bad and illegal conduct, number one. And number two, 
remember that the Acting Commissioner, when this first broke, 
proposed a scenario where he would do a 40 percent self-
certification to grant exemptions to these (c)(4) organizations 
if they would self-certify that no more than 40 percent of 
their activity was deemed political.
    Now, my clients did not exercise that. But if some client 
of some lawyer did exercise that, because there were over 300 
of these groups that were targeted, if they did exercise that 
how would you like to be the lawyer that told their client to 
exercise the 40 percent rule and then 9 weeks later, the IRS 
say, and by the way, 40 percent, we have just changed the 
definition of political activity. You don't get to change the 
rules in the middle of the game to justify your bad behavior.
    Thank you, Mr. Chairman.
    Mr. Jordan. Thank you, Mr. Sekulow, we appreciate that.
    Recognize the vice chair of the committee, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman. Thanks to the 
witnesses.
    You know, this targeting issue is obviously very 
concerning, but understanding the government being what it is, 
understanding human nature, people are apt to abuse their 
power. What is even more concerning for me is that once you 
have an admission of that, once you have somebody taking the 
Fifth Amendment, there is zero interest in rectifying any of 
this. And what the IRS has done, what the FBI has done, the 
Justice Department, I mean, I agree with the witnesses, this is 
just a total sham and the American people are not getting 
answers.
    Ms. Engelbrecht, you mention in your statement, but I just 
think it should bear repeating, you had 20 years in business, 
zero issues with any agencies. You file for King Street and for 
True The Vote for status, and you are visited by how many 
different agencies? Which ones? FBI?
    Ms. Engelbrecht. The FBI, the IRS.
    Mr. DeSantis. IRS.
    Ms. Engelbrecht. Bureau of Alcohol, Tobacco and Firearms.
    Mr. DeSantis. ATF.
    Ms. Engelbrecht. OSHA.
    Mr. DeSantis. OSHA.
    Ms. Engelbrecht. And Texas' sort of branch of the EPA.
    Mr. DeSantis. Now, and you have mentioned, I think very 
eloquently, that you are going to keep fighting, and I see 
that, obviously. But when you have to deal with this, I mean, 
you have a business, you have other things, you are trying to 
impact the country in a positive direction, when you have to 
deal with these agencies like this, it makes you less effective 
in pursuing your message. It has to. Am I right in saying that?
    Ms. Engelbrecht. It certainly gives one pause to think that 
there is interagency collusion against private citizens. It is 
the weaponization of government.
    Mr. DeSantis. And do you think that people similarly 
situated to you may look at what happens to people who speak 
out, and they may just decide, look, I don't want to deal with 
that. And so I'm going to just remain silent because I don't 
want to buy myself problems. In other words, this type of 
targeting can chill political speech. Do you think that is 
true?
    Ms. Engelbrecht. That's absolutely the case.
    Mr. DeSantis. Ms. Gerritson, what was the IRS asking you to 
provide? It seems like these were very invasive and intrusive 
questions.
    Ms. Gerritson. They sent me a list of approximately 80 
questions. It was an eight-page document. Some of the questions 
they asked they wanted to know all of my members' names. They 
wanted to know volunteers' names.
    Mr. DeSantis. Which by the way, I mean, we already know 
Lois Lerner has disclosed tax information, that she got caught 
red-handed in an email, so this stuff is supposed to be 
confidential, but we know that a lot of times it is not kept 
confidential. So continue.
    Ms. Gerritson. They wanted to have copies of every speech 
that was ever given. They wanted credentials of who those 
speakers were. They wanted to know if any of our members or 
volunteers were going to run for office, and if so, what 
office. Remember, this was the 2012 election cycle when we got 
this questionnaire. They wanted to know any communications that 
I have had with any legislative body, even within my own 
representative. They wanted emails, phone contact. They wanted 
to know what I was saying to my legislator.
    Mr. DeSantis. So I will ask a similar question for you. 
Just seeing that, a lot of people getting involved in politics 
for the first time, you are seeing all these questions, do you 
think that some people just look at that, and say, I don't want 
to have to deal with this? In other words, does this cause some 
people to silence themselves.
    Ms. Gerritson. Absolutely. We have a group in Alabama who 
said they got their letter and said, we are not going to do 
this, and they stopped.
    Mr. DeSantis. Ms. Mitchell, do you agree with Mr. Sekulow, 
this idea that, oh, well, they were targeting everybody, 
liberal groups as well, you know, that is false in your 
judgment, correct?
    Ms. Mitchell. It is absolutely false. The records don't 
substantiate that, and I know that that is one of the things 
that people have been using since last summer as a means of 
trying to discredit or to thwart the investigation. I will give 
you one example. There was a report that was published in USA 
Today last September which was an internal IRS document that 
listed 162 organizations that were on the watch list or 
development list at the IRS. And I think the number that was 
calculated was 83 percent of them were conservative. I'll give 
you the example. This was a document prepared in November 2011. 
King Street Patriots is listed on there and it says on the 
report likely approval. November of 2011, likely approval.
    Also on that list is one of the few liberal groups, 
Progress Texas, and references in the comments that this is an 
organization that appears to engage in anti-Rick Perry 
propaganda. November 2011. Fast forward. Progress Texas gets 
its tax-exempt status by May of 2012. King Street Patriots did 
not get its tax-exempt status until 2 months ago after going 
through yet more rounds of questioning.
    Mr. DeSantis. Thank you. I'm about out of time. I just want 
to ask Mr. Sekulow, what the administration is trying to do 
with the (c)(4), is it safe to say that if that is in effect 
that that would disproportionately affect conservative groups? 
In other words, a lot of the labor unions and environmental 
groups would not be affected by that, is that correct?
    Mr. Sekulow. Correct, because a lot of those are exempt 
under different provisions of the Internal Revenue Code. But in 
that regard and with regard to the questioning aspect of this 
and the chilling effect, which I think, Congressman, is what 
you are going after, we have a client, a pro-life organization 
that is one of the ones targeted. The questions to them were so 
draconian in nature that this is what they asked. Talking about 
the client's pro-life position, this is the IRS, ``The 
presentation of viewpoints or positions are unsupported by 
facts as a significant portion of the organization's 
communications. The facts that purport to support the viewpoint 
or positions are distorted.'' This is coming from an Internal 
Revenue Service agent.
    ``The organization's presentation makes substantial use of 
inflammatory and disparaging terms and express conclusions more 
on the basis of strong emotional feelings than of objective 
evaluations. And the approach used in the organization's 
presentation is not aimed at developing an understanding on the 
part of the intended audience or the readership because it does 
not consider their background or training in the subject 
matter.''
    Who gave the IRS the authority to say this? And how is it 
that the President of the United States can say there is not a 
smidgeon of corruption when the documents--by the way, some of 
these signed by Lois Lerner or Holly Paz--how could they 
possibly even say this?
    The thing I don't understand, Mr. Chairman, is as the 
President was making his statements, as members of this 
committee were making statements, we had the documents in our 
possession, and I know Cleta did as well, from offices all over 
the country, coast to coast. And the agents told our clients it 
was being managed out of Washington. And with the email that 
was released yesterday, we know how high up the chain. And I 
would urge the committee, when you start talking about 
associate chief counsels, divisional counsels, this is as high 
as it gets.
    Mr. Jordan. Well said.
    The gentleman from Pennsylvania is recognized.
    Mr. Cartwright. Thank you, Mr. Chairman.
    As I said at the outset of this hearing, I am deeply 
troubled regarding IRS employees' improper handling of 
applications for tax-exempt status. However, I am encouraged 
that senior leadership of the agency during this period has 
been removed. In December the Senate confirmed a new 
Commissioner of the IRS, and he has pledged his commitment to 
cooperating with Congress and reforming the agency. I do look 
forward to working with him.
    While I welcome the opportunity to hear the concerns of 
these witnesses that participate in this hearing, I do fear 
that the committee is once again presenting only one side of 
the story. The committee's 10-month-long investigation has 
uncovered no evidence to support claims that the IRS was 
targeting any groups for political reasons. Not one single 
witness has appeared before this committee and told us that the 
White House was involved in directing the conduct of the IRS 
employees.
    The deputy inspector general for investigations identified 
absolutely no evidence of political motivation after a review 
of more than 5,000 emails of IRS employees, and that was 
Russell George. And he was the one whose report really sparked 
this committee's hearings. And I personally asked him that 
question: Did you find evidence of political motivation for 
what was going on? And he said no.
    Instead, as we learned in a transcribed interview last 
year, it was the self-described conservative Republican manager 
in Cincinnati who oversaw IRS employees who developed the 
inappropriate criteria for examination.
    And, Mr. Sekulow, you were helpful with some statistics 
this morning, and I wanted to ask you about that. You mentioned 
104 conservative groups targeted. Was that the number?
    Mr. Sekulow. This is from the report of the IRS dated 
through July 29th of 2013, 104 conservative organizations on 
that report were targeted.
    Mr. Cartwright. Thank you. And then seven progressive 
targeted groups.
    Mr. Sekulow. Seven progressive organization groups, all of 
which received their tax exemption.
    Mr. Cartwright. Does it give the total number of 
applications? In other words, 104 conservative groups targeted. 
How many applied? How many conservative groups applied?
    Mr. Sekulow. In the TIGTA report I think the number was 283 
that they had become part of the target. But actually, 
applications, a lot of the IRS' justification for this, at 
least purportedly, was an increase in applications, and there 
was actually a decrease in the number.
    Mr. Cartwright. Right. And does it give the number of 
progressive groups that applied for tax-exempt status?
    Mr. Sekulow. No, the only report that has the progressive--
--
    Mr. Cartwright. No? No?
    Mr. Sekulow. The report I have in front of me is the one 
which just has the seven.
    Mr. Cartwright. All right, thank you.
    Mr. Sekulow. None of those have been denied, though.
    Mr. Cartwright. Now, in addition, the committee's 
investigation in this matter revealed that the IRS also sought 
out liberal groups with these words, progressive or occupy, in 
the names. At an Oversight Committee hearing last year, Russell 
George admitted he actually failed to inform our committee that 
he was aware of progressive groups receiving similar treatment 
as conservative groups.
    And now, Ms. Mitchell, you have favored us with your 
testimony this morning, and thanks again for coming. We just 
found out about you Monday afternoon, so we didn't have too 
much time to read about you. But I saw your extensive CV, which 
is online, and has you as a partner at the Foley Lardner law 
firm here in Washington, is that right?
    Ms. Mitchell. Correct.
    Mr. Cartwright. All right. And it says that you are a 
member of the firm's political law practice. Is that correct?
    Ms. Mitchell. Correct.
    Mr. Cartwright. Okay. The firm has a taxation practice 
that's different from the political law practice?
    Ms. Mitchell. Correct.
    Mr. Cartwright. Okay. But you are in the political law 
practice. If I'm not mistaken, you have personally served as 
legal counsel to the National Republican Senatorial Committee. 
Am I correct on that?
    Ms. Mitchell. Among others, yes.
    Mr. Cartwright. You have personally served as legal counsel 
to the National Republican Congressional Committee as well. Am 
I correct in that?
    Ms. Mitchell. Correct.
    Mr. Cartwright. You served as a legislator in Oklahoma. Am 
I correct?
    Ms. Mitchell. Correct.
    Mr. Cartwright. Would that be as a Republican legislator?
    Ms. Mitchell. No, actually, I was a Democrat then.
    Mr. Cartwright. Were you?
    Ms. Mitchell. Until I realized that that had become the 
party of the government and not the people.
    Mr. Cartwright. Okay.
    Mr. Connolly. Mr. Cartwright, just for the record, not all 
of us would agree with that. We are entitled to our political 
views, too.
    Mr. Cartwright. Thank you, Mr. Connolly.
    I guess the question I have for you is, in your law 
practice, your political law practice, how many progressive 
groups do you represent right now?
    Ms. Mitchell. None, because it doesn't work that way.
    Mr. Cartwright. How many liberal groups do you represent 
right now?
    Ms. Mitchell. It doesn't work that way. It doesn't work 
that way. It doesn't work that way, Congressman.
    Mr. Cartwright. Well, you testified that you represent Tea 
Party groups.
    Ms. Mitchell. I do.
    Mr. Cartwright. All right. So it works that way.
    Ms. Mitchell. That's right. And as I say to people, in this 
law practice practice you can't play for USC and Notre Dame, 
you have to pick a team.
    Mr. Cartwright. How many occupy groups do you represent?
    Ms. Mitchell. Lord, I wouldn't represent one of them on a 
bet.
    Mr. Cartwright. All right. I think you have answered my 
question.
    Mr. Sekulow. I have represented the ACLU, however, Mr. 
Cartwright.
    Mr. Cartwright. Now, in light of continuing revelations 
that the majority on this committee has excluded Democratic 
members and staff from in-person meetings with the inspector 
general's staff, serious concerns persist about the 
impartiality of the work of the majority on this committee. 
Sadly, only Tea Party groups are represented before this panel 
today, and one of them has already testified before Congress. 
Since the identities of these witnesses has only been revealed 
on Monday afternoon, our staff was unable to identify a 
minority witness on such short notice, and as a result this is 
not a balanced hearing.
    Now, this committee is charged with conducting oversight of 
the Federal Government. And as Members of Congress, we must 
exercise that authority in a responsible manner. Calling this 
kind of one-sided hearing and making false legal allegations, 
attacking the credibility of career Federal employees falls 
well short of that standard. Going forward, I want to see us 
working together to conduct responsible oversight of the 
Internal Revenue Service.
    With that, I yield back, Mr. Chairman.
    Mr. Jordan. I would just point out that--well, first of 
all, you know, Ms. Mitchell doesn't represent progressive 
groups, because it sounds like, according to Mr. Sekulow, they 
don't need it. They were seven for seven.
    Mr. Sekulow. Now, I'd urge you to have some come over here 
and testify and find out what they were asked.
    Mr. Jordan. The minority had--the minority had 9 days' 
notice of this hearing. They could have got a witness here. 
Maybe you want to go get one of those seven who got approved 
out of the seven who were put on some notice. But what the 
committee did--what the minority did have time to do was to 
write me a letter urging me not to pursue having Barbara 
Bosserman come here and answer our questions. You had time for 
that, but you didn't have time to find someone to come testify?
    I recognize the gentleman from South Carolina.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I'm a lot more interested in having a balanced 
investigation than I am a balanced hearing, and in that light, 
Ms. Engelbrecht, did you hear the President say there was not a 
smidgen of corruption?
    Ms. Engelbrecht. I've heard that he said that, yes, sir.
    Mr. Gowdy. Ms. Gerritson, did you hear the President say 
there was not a smidgen of corruption? And let me just 
translate that, because ``smidgen'' is not a legal term. I 
assume he meant scintilla, and I assume he meant criminality 
instead of corruption.
    How was he able to make that conclusion? Neither of you 
have been interviewed by the Bureau, have you?
    Ms. Engelbrecht. No, sir.
    Ms. Gerritson. No.
    Mr. Gowdy. And according to Mr. Sekulow, of his 41 clients, 
3 have been interviewed, or 3 were asked to be interviewed.
    Mr. Sekulow. Right. Not interviewed yet.
    Mr. Gowdy. Okay. Zero of 41 have actually been interviewed.
    Mr. Sekulow. Correct.
    Mr. Gowdy. All right. So the President says there's not a 
smidgen of criminality or corruption. Do either of you remember 
seeing a witness named Lois Lerner sitting at the very table 
you-all are sitting at? Do you remember her invoking her Fifth 
Amendment privilege, the same privilege that she targeted some 
of your groups for trying to educate people about. Some of your 
just groups just want to simply educate people about the 
Constitution, the one that she availed herself of the very 
second she was exposed to criminal investigation.
    So how can the President say there's not a smidgen of 
criminality, when Lois Lerner invoked the Fifth Amendment, 41 
witnesses haven't been interviewed, including the 2 that are 
here right now? How can he possibly draw that conclusion?
    Ms. Gerritson. Good question.
    Mr. Gowdy. I wish someone--I wish one of my colleagues on 
the other side of the aisle would ask the President how in the 
world he concluded no criminality when Lois Lerner sat in front 
of them and invoked her privilege against criminality? How do 
you square that?
    Mr. Sekulow. Mr. Gowdy, if I may. She invoked her Fifth 
Amendment privilege, which she has the right to do, of course. 
You and I both respect that because we now know the reason why. 
It wasn't perhaps as clear as it was made yesterday. She 
invoked her Fifth Amendment privilege because she knew--after 
she made a false statement in a planted question at an ABA 
meeting, she knew that, in fact, there was, her words and her 
emails, off-plan drafting of rules targeting conservative 
groups.
    She also said at a Duke law forum that people are asking us 
what we can do, and she said, I can't do anything until I see 
the 990s, the tax returns that are filed. That was all going on 
while she was redrafting the rules with the highest level of 
the Chief Counsel's Office.
    Mr. Cartwright, I----
    Mr. Gowdy. Mr. Sekulow, I just--I want to say this. I 
understand why she invoked her Fifth Amendment privilege. I 
don't understand why in the hell the President of the United 
States would prejudge an investigation----
    Mr. Sekulow. I don't either.
    Mr. Gowdy. --before any of your clients were interviewed, 
before either of these two victims--and I know you don't like 
that word, but I'm using it in a criminal sense of the word--
before either of these two victims were interviewed. He has 
gone on national television, he has prejudged the investigation 
and, in my judgment, has compromised the Department of Justice, 
which leads me to this question, Mr. Sekulow.
    Mr. Sekulow. Yes, sir.
    Mr. Gowdy. There is the option, when you have a compromised 
investigation and a chief executive who has prejudged the 
outcome before the jury's even gotten all the evidence, he's 
got an option of appointing a special counsel, right?
    Mr. Sekulow. Yes, he does.
    Mr. Gowdy. And the special counsel regulation says if it's 
extraordinary circumstances that furthers the public interest. 
Can you think of anything more extraordinary than government 
targeting people based on their political beliefs?
    Mr. Sekulow. No. I agree with you 100 percent, and I also 
would point to the--again, the email of June 14th, 2012, which 
was just released, because this shows the need for a special 
prosecutor at this point on the criminal aspect of this.
    And again, Mr. Cartwright, when you asked about the no 
evidence of politics, let me quote from the email:
    ``Don't know who in the organization is keeping tabs on 
(c)(4)s, but since we mentioned potentially addressing them 
off-plan in 2013, I've got my radar up, and this seemed 
interesting.''
    These are coming from the most senior people within the 
Chief Counsel's Office of the IRS, which is a Presidential 
appointee. Again, it's an office I came out of, so I have due 
respect for the office. But at this point, a special prosecutor 
to evaluate the criminal sanctions or criminal laws applicable 
would probably be the best way--I believe would be the best way 
to go because I don't think the Justice Department right now--
again, with due respect to the Justice Department--is 
institutionally capable of doing this.
    And I need to say this also, because I thought that the--
the question of Mr. Cartwright on Ms. Mitchell's legal 
representations. She has an exceptionally excellent reputation 
in this town as a lawyer, and her clients tend to be 
conservative because that's who her clients tend to be. But, 
you know, I'm a conservative also, but I--like I said, I've 
represented the American Civil Liberties Union in cases at the 
Supreme Court of the United States. I've represented the 
National Democratic Policy Committee as well. So I don't think 
this is--it's fair to go after the lawyers in a situation where 
it is the IRS that is trying to use their procedures to justify 
their illegal conduct. They--remember the apology? They offered 
the apology. You know what? The apology is not accepted.
    Mr. Gowdy. Mr. Chairman, in conclusion, I believe the 
ranking subcommittee member said that there are 13 people 
assigned in this investigation, if I heard correctly. Thirteen 
people in 6 months have not had time to interview a single 
solitary one of Mr. Sekulow's clients; 13 people in 6 months 
have not had time to interview either of these 2 witnesses, and 
yet the chief executive, the President of the United States, 
has already prejudged the outcome of this investigation. So 
either it's ongoing or it's not; either he's wrong or Eric 
Holder is wrong. In either case, it is time for special 
counsel, Mr. Chairman.
    Mr. Jordan. Thank you, gentlemen.
    I recognize the gentleman from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
this intriguing hearing.
    I will say at the outset my friend from South Carolina, for 
whom I have great regard--we don't agree on much, but we have 
mutual respect--but I will say it ought to trouble a Tea Party 
panel and a lawyer who represented the ACLU that this committee 
took upon itself a unique task in voting that a U.S. citizen, 
irrespective of her views or what you think she did or did not 
say, to protect herself against self-incrimination, a very 
sacred principle enshrined in the Constitution of the United 
States, and it was enshrined in there because of the experience 
of our Founders with the British, it's a very real right--this 
committee took upon itself, every Member on that side including 
my friend from South Carolina, voted unilaterally to decide she 
dispense with, waive her Fifth Amendment right. And if we can 
do that to her, we can do it to you.
    Every one of us on this side of the aisle voted not to do 
that because irrespective of what one may decide on the 
substance of Ms. Lois Lerner's behavior, testimony, whatever, 
we think American citizens are entitled to constitutional 
protections, and that the Congress--a committee of Congress 
does not have the unilateral ability to decide on its own that 
you waive that right. And listening to the testimony and the 
concerns here about a government that's overreaching, I would 
think you might be concerned about this committee overreaching. 
But it wasn't this side, Ms. Mitchell, that did it. It wasn't 
this--no, I'm not asking you a question. You made a statement. 
I'm making a statement.
    Ms. Engelbrecht, your written testimony states you believe 
various run-ins with the government were prompted by your 
applications for tax-exempt status with the IRS; is that 
correct?
    Ms. Engelbrecht. Yes, sir.
    Mr. Connolly. One of the Federal agencies you mentioned is 
OSHA, the Occupational Safety and Health Administration. You 
complained specifically that in 2012, OSHA inspected your 
company, Engelbrecht Manufacturing, and--which manufactures 
fabricated metal products, and you state that OSHA found, 
``nothing serious or significant, and nonetheless, OSHA issued 
fines in excess of $20,000"; is that correct?
    Ms. Engelbrecht. Yes, sir.
    Mr. Connolly. OSHA's inspection report shows that it 
identified 10 violations at your manufacturing company, all of 
which are classified as serious. These violations included the 
failure to provide employees with appropriate eye or face 
protection when exposed to eye or face hazards from flying 
particles, molten metal, liquid chemicals, acids, caustic 
liquids, chemical gases or vapors, or potentially injurious 
light radiation.
    And, Mr. Chairman, I would ask that the inspection report 
go into the record at this point.
    Mr. Jordan. Without objection.
    Mr. Connolly. Now, is it your contention that those 
findings were politically motivated because you're seeking a 
tax-exempt status for another entity; that those violations, in 
fact, were trivial or nonserious, in your view?
    Ms. Engelbrecht. When OSHA came to our shop, they came 
under a false SIC classification. They came when neither my 
husband nor I were there, and proceeded to interview employees. 
And I would very much welcome everything that the--that OSHA--
--
    Mr. Connolly. But my question----
    Ms. Engelbrecht. --gave to us be included, because the 
cover letter of OSHA clearly states that----
    Mr. Connolly. Ms. Engelbrecht.
    Ms. Engelbrecht. --that they found nothing. No, sir, let me 
please answer your question.
    Mr. Connolly. No, ma'am, I am going to control this 
questioning, and I'm asking you a simple question. You're going 
to have a press conference later. You can speak to your heart's 
content there. I only have 5 minutes.
    Were these or were these not, in your view, a serious 
matter? I thought your testimony said they were not serious.
    Ms. Engelbrecht. In my opinion and in the cover letter 
stated opinion of OSHA, they were not serious.
    Mr. Connolly. You complained that neither you nor your 
husband were there. Is it not the case that it's OSHA's 
practice not to give advance warning? That's the whole point of 
an inspection to determine whether a facility, in fact, is 
safe, whether there are violations or not. To tell you we are 
coming next Thursday is obviously to give you a heads up to 
clean up whatever you might think is, you know, a violation. 
Isn't that their normal practice?
    Ms. Engelbrecht. Sir, I don't know what the normal practice 
is. We complied as we did with every agency that came over 
these last 3 years.
    Mr. Connolly. Well, if it's your testimony now under oath 
that you don't know their normal practice, how are you able, 
nonetheless, to conclude that it's politically motivated and 
has something to do with your seeking a tax-exempt status, to 
punish you for that, as opposed to their normal practice 
looking at a manufacturing facility to make sure it's safe for 
the workers?
    Ms. Engelbrecht. Because in the past 3 years, after 20 
years of being--nearly 20 years of being in business and no 
agency coming to visit with us, the succession of agencies that 
have now come to us for all manner of things begs the question 
the statistical probability of what happened to me happening 
without political motivation is staggering.
    Mr. Connolly. Well, I would just note for the record, Ms. 
Engelbrecht and Mr. Sekulow, because we are so concerned about 
the law here and making sure there are no violations of the 
law, are you aware of the fact that it's actually illegal for 
the Department of Labor's OSHA to give advance notice when it 
does inspections? That's actually a matter of law.
    Ms. Engelbrecht. I was not aware of that, but I'm not 
contending that they should have given us notice. I'm only--I'm 
only observing.
    Mr. Connolly.But you complained about it. You complained 
that you didn't get advance notice, and you just said you were 
concerned that neither your husband--I understand the concern, 
but you understand that they can't check in advance to see will 
you be there.
    Ms. Engelbrecht. Nor did we try to do anything to 
discourage that process even though we weren't on premises.
    Mr. Connolly. And I absolutely take that at face value. But 
it's a huge leap, then, given that, to conclude that someone is 
out to get you, Ms. Engelbrecht; that there's any political 
motivation whatsoever with OSHA following its standard 
operating procedures.
    Mr. Sekulow. But, Mr. Connolly, you're aware that the 
information from the IRS is----
    Mr. Connolly. Mr. Sekulow----
    Mr. Sekulow. I'm sorry.
    Mr. Connolly. Mr. Sekulow, I'm trying to ask the question.
    Mr. Jordan. The gentleman's time is expired.
    Mr. Connolly. Thank you.
    Mr. Jordan. Ms. Engelbrecht, in the first 20 years of 
business, did OSHA ever visit your place of business?
    Ms. Engelbrecht. No, sir.
    Mr. Jordan. Never once?
    Ms. Engelbrecht. No, sir.
    Mr. Jordan. After you filed the application, OSHA visited 
then, right?
    Ms. Engelbrecht. Yes, sir.
    Mr. Jordan. Okay. And in the first 20 years of business, 
did the ATF ever come to your business?
    Ms. Engelbrecht. No, sir.
    Mr. Jordan. Okay. And they came a couple of times once you 
filed your application?
    Ms. Engelbrecht. Yes, sir.
    Mr. Jordan. All right. And in your first 20 years of 
business, did the IRS ever audit you?
    Ms. Engelbrecht. No, sir.
    Mr. Jordan. But once you filed your application, did they 
audit you?
    Ms. Engelbrecht. Many times.
    Mr. Jordan. Okay. And in your first 20 years of business, 
did the FBI ever visit you?
    Ms. Engelbrecht. No, sir.
    Mr. Jordan. But once you filed your application, did they 
visit you?
    Ms. Engelbrecht. Six times.
    Mr. Jordan. But Mr. Connolly wants us all to believe that's 
a coincidence.
    I would recognize the----
    Mr. Connolly. Mr. Chairman, are you saying unilaterally to 
respond every one of our questions without a response?
    Mr. Jordan. Go ahead.
    Mr. Connolly. [Inaudible.]
    Mr. Jordan. I was just pointing out that in 20 years of 
business, OSHA never came to Ms. Engelbrecht's place of 
business.
    Mr. Connolly. You didn't just----
    Mr. Jordan. Yes, I was, and in 20 years of business, OSHA 
never visited, FBI never visited----
    Mr. Connolly. --invoking my name, Mr. Chairman.
    Mr. Jordan. IRS never audited. Okay. Well, you can respond.
    Mr. Connolly. Thank you.
    Mr. Jordan. Even thought I gave you plenty of extra time, 
I'll give you some more.
    Mr. Connolly. Thank you.
    Mr. Jordan. The gentleman is recognized for a minute.
    Mr. Connolly. So where is the proof, though, other than 
you're connecting dots that may or may not be connected, that 
OSHA was politically motivated?
    Mr. Jordan. I didn't say proof; I'm just saying you want us 
all to believe it's a coincidence.
    Mr. Connolly. Well, and you want us all to believe that by 
innuendo there must be something wrong.
    Mr. Jordan. Fifteen times in a 2-year timeframe, four 
different Federal agencies visit this lady's place of business, 
audit her personal and business records, and you expect us to 
believe that just----
    Mr. Connolly.I don't expect you to believe----
    Mr. Jordan. To them, it just happened?
    Mr. Connolly. I don't expect you believe anything. You can 
believe whatever you choose to believe.
    Mr. Jordan. Well, you can believe it's all a coincidence. I 
refuse to do that.
    Mr. Connolly. No, I didn't say that either. I believe in 
fact-based, empirical oversight, and innuendo and drawing 
conclusions and paranoia----
    Mr. Jordan. I'd ask the gentleman----
    Mr. Connolly. --do not substitute for fact-based, empirical 
oversight, Mr. Chairman.
    Mr. Jordan. Well, here are the facts.
    Mr. Connolly. And the----
    Mr. Jordan. She filed a--an application for (c)(4) status 
and subsequently was visited by OSHA, FBI, ATF, and was audited 
by the IRS. That happened.
    Mr. Horsford. Mr. Chairman----
    Mr. Connolly. I would just say, Mr. Chairman----
    Mr. Horsford. Mr. Chairman----
    Mr. Connolly. --you should be in the panel, given your 
views.
    Mr. Horsford. Mr. Chairman, will you yield your time for a 
parliamentary question?
    Mr. Jordan. Yield to the gentleman.
    Mr. Horsford. Thank you.
    Mr. Jordan. The gentleman is recognized.
    Mr. Horsford. Can someone answer for me, in the report that 
was referred to by Mr. Connolly and the OSHA report, the 
witness reached a negotiated agreement with OSHA and paid 
fines.
    Mr. Jordan. I'm not sure this is a parliamentary inquiry.
    Mr. Horsford. It is because it deals with----
    Mr. Jordan. You want to enter something in the record, 
we'll put it in the record.
    Mr. Horsford. It's already in the record. My question is, 
is it true that the witness paid fines substantiating the 
serious violations that were found out of the OSHA report?
    Mr. Jordan. I think that question has been asked and 
answered.
    Mr. Horsford. No, I didn't--I did not hear. That's my 
parliamentary question. Will the witness answer the question?
    Mr. Meadows. Mr. Chairman, that's not a parliamentary----
    Mr. Jordan. When you get recognized, which will be shortly, 
we'll let you ask that question, and if the--I think the 
witness has answered it, but if she wants to answer it again, 
and you ask it, I'm sure she'll do that.
    I recognize--want to recognize the gentleman from North 
Carolina Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Engelbrecht, you started to respond to the gentleman 
from Virginia by saying ``the cover letter,'' and he cut you 
off. Go ahead. You can finish what you wanted to say in that 
cover letter.
    Ms. Engelbrecht. Thank you.
    Just that the cover letter from OSHA made very clear that 
they found no serious or concerning findings.
    Mr. Meadows. Okay. Well, I want to apologize, because what 
happens in these hearings, quite frankly, is that you come to 
tell the story of a true American patriot, and then politics 
can be played. And I'm not making any assertions towards my 
colleagues opposite, I'm just saying that it becomes very clear 
that it was extremely coincidental that all these Federal 
agencies decided to visit your place of business after you took 
one particular action, and so I find it, the probability of 
that happening, extremely low.
    I do want to follow up. In your opening testimony, though, 
you made some assertions, and you mentioned the gentleman from 
Maryland, who is here. And I want to make sure that in that, 
you know, that we--we don't do anything indirectly that would 
disparage a Member of this House. You were saying that he 
targeted you; is that correct?
    Ms. Engelbrecht. Congressman Cummings, on three separate 
occasions, sent letters on letterhead from this committee 
stating that he had concerns and felt it necessary to open an 
investigation on True the Vote, yes.
    Mr. Meadows. All right. So, it was correspondence as it 
relates to this committee, finding more facts as it relates to, 
you know, getting to the truth.
    Ms. Engelbrecht. Yes. He--he, according to the letters, 
indicated that it was the consensus of this committee that we 
needed to be investigated.
    Mr. Meadows. Oh, he said you needed to be investigated.
    Ms. Engelbrecht. And that he was going to be the self-
appointed person to do that investigation of us, yes, sir.
    Mr. Meadows. Okay. And so--so as we look at it--Ms. 
Mitchell, so the point of that is as--they were going in saying 
that she should be investigated in what terms? I mean, what's 
the scope of that investigation?
    Ms. Mitchell. True the Vote is a 501(c)(3) now, but its 
application was still pending at the time, and True the Vote 
became very involved and is the Nation's leading organization 
which tries to enforce election laws and ensure the integrity 
of elections. True the Vote has recruited hundreds and hundreds 
of volunteers across the country who volunteer to help preserve 
the integrity of the elections in their communities and in 
their States. They challenge--they try to--True the Vote has 
filed lawsuits to encourage the--to force localities to comply 
with Federal law in cleaning up voter rolls, among other 
things.
    Congressman Cummings took it upon himself--and I think that 
I was not representing True the Vote in that particular 
proceeding, but there were a series of letters sent to True the 
Vote from Congressman Cummings, which purported to be on behalf 
of the committee, using the franking privilege, and which 
sought to delve into the inner workings of True the Vote and to 
make allegations about True the Vote that were not true, 
demanding materials, demanding information, demanding that 
Catherine Engelbrecht and representatives of True the Vote make 
themselves available in Washington. And frankly, we think that 
is improper, and we will deal with that in a different 
proceeding, but we also--because we--but we also want to know 
whether there was any effort.
    We want to get to the bottom of how these coincidences 
happened, and we're going to try to figure out whether any--if 
there was any staff of this committee that might have been 
involved in putting True the Vote on the radar screen of some 
of these Federal agencies. We don't know that, but we--we're 
going to do everything we can do to try to get to the bottom of 
how did this all happen.
    Mr. Cummings. Will the gentleman yield?
    Mr. Meadows. Yes.
    Mr. Cummings. I want to thank the gentleman for his 
courtesy.
    What she just said is absolutely incorrect and not true. 
Letters were sent out as the ranking member. I am the ranking 
member of this committee. I did nothing different than what Mr. 
Issa has done when looking into situations, and I don't want to 
put out there that I was trying to act on behalf of the 
committee or anything unusual. We were basically looking into 
voting situations and whether voters were in any way, in any 
way, being impeded from voting.
    I want to thank the gentleman. And we have the letters, by 
the way, and the only one--and Chairman Issa was sent copies of 
all of the letters, so we weren't hiding anything.
    Thank you very much for yielding.
    Mr. Meadows. Well, and I thank the gentleman and certainly 
wanting to make sure that you have the opportunity.
    And so, Ms. Engelbrecht, the gentleman from Maryland 
obviously is one that--from a targeting standpoint, so I would 
just let him follow up on that and make sure--and give him--
yield to him in terms of following up to assure you that 
neither he nor his staff or anyone would have contacted the IRS 
to investigate you and to do that. And so I'd yield to the 
gentleman and let him give you those personal assurances.
    Mr. Cummings. I can assure you--let me just be--and I want 
to thank the gentleman for that.
    There is no one that I know of that care more about the 
rights of our citizens than I do. And I'm not--and I'm sure all 
of us do. But just as you-all have the passion that you have, 
and I respect that, I, too, have the passion to make sure that 
no one, I don't give a--whether it's Tea Party, Republican or 
Democrat, nobody is blocked from voting. There is no way that I 
would be sitting here today, no way, unless it was for--unless 
we had fair and vote--the voting in this Nation. My 88-year old 
mother, who's probably watching us right now, could not vote.
    And the last thing, I said, Ma--one of the things she said 
to me, I do not want to die with the thought that my people are 
losing their right to vote. And so I got to tell you, I want to 
thank the gentleman because I wanted that to be clear, and I 
will fight until I die, until I die, for the right to vote 
because it's not about me. It's about generations yet unborn 
and their rights. And just like you-all care about IRS not 
doing the things that you feel that they've done, I feel the 
same way. I don't want the IRS targeting anybody. But at the 
same time I have the same position about their right to vote. 
And again, I want to thank the gentleman for yielding.
    Mr. Meadows. Well, I want the gentleman to be able to 
assure Ms. Engelbrecht that he--and I'll let him speak to this, 
but that he did not direct, nor his staff direct, anybody at 
the IRS to investigate you and look into this particular 
matter.
    Mr. Cummings. I can assure you of that, of what he just 
said.
    Mr. Meadows. Thank you. I thank the gentleman, and I thank 
the chairman for his patience.
    Mr. Cummings. And I want to thank--I really do thank the 
gentleman for that opportunity.
    Mr. Jordan. Gentlelady from Illinois is recognized.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Chairman, I am looking at a letter from the U.S. 
Department of Justice in response to your letter and Chairman 
Issa's letter requesting information pertaining to an ongoing 
investigation, and I did not--I don't know if this is in the 
record or not, but I will ask for it to be entered into the 
record. It's their response to your request.
    Mr. Jordan. This is response from Mr. Cole?
    Ms. Duckworth. This is the response from----
    Mr. Jordan. Deputy Assistant Attorney General?
    Ms. Duckworth. No, from Assistant Director Steven Kelly to 
your letter and Mr. Issa's letter.
    Mr. Jordan. Yeah, without objection.
    Ms. Duckworth. Thank you.
    Like all Americans, I was outraged to learn of the 
targeting by the IRS of both conservative and progressive 
groups. This type of political targeting by a government agency 
that is supposed to have the public's trust is completely 
unacceptable, so I certainly understand the emotion and passion 
of the witnesses.
    As Members of Congress, particularly members of this 
committee, we have a duty to look into this type of wrongdoing 
and mismanagement that occurred at the IRS. We also have to 
learn from the mistakes and put processes in place to make sure 
that they never happen again, and I think this is something 
that all of my colleagues on this panel are committed to do 
doing. The Department of Justice is also rightfully 
investigating the incident to determine if any laws were 
broken.
    But, you know, Mr. Chairman, I think it's completely 
inappropriate to provide these witnesses with a platform today 
to unfairly attack ranking member of the full committee Mr. 
Cummings. Like any member of this committee, he has the 
authority, and one might even say the moral obligation, to 
conduct investigations into serious concerns that are raised to 
his attention.
    In this case the ranking member requested documents to 
investigate serious public allegations of voter 
disenfranchisement regarding True the Vote. He wrote letters 
laying out these allegations, he cited the sources for his 
information, and he asked True the Vote to provide documents to 
either prove or disprove these allegations.
    Mr. Cummings' actions were no different than those of 
Congressman Issa when he served as this committee's ranking 
member, and Representative Issa sent letters after letter in 
his making similar document requests from all kinds of 
government and private entities.
    I would expect that you and every other member of this 
committee would defend the right of all members to seek 
information and documents, regardless of party affiliation. 
It's no surprise but the group the ranking member has been 
investigating should lash out against him. What is surprising 
is that they would suggest that the FBI investigate his actions 
as potential illegal activity. And what is so astonishing to me 
is that you would give them a public forum to do so.
    The false and outrageous allegations against Mr. Cummings 
were included in written testimony distributed by this 
committee in advance of today's hearing and posted on the 
Committee's public Web site. You knew this was coming, and you 
allowed it to happen. And earlier today, Mr. Cummings wrote a 
letter to the Board of the Office of Congressional Ethics 
easily debunking these claims and providing full copies of all 
of his correspondence with True the Vote. He also made all 
those letters available to the public on the Democratic 
Committee Web site.
    I ask that his letter be made part of the hearing record 
today, and I regret that our committee would allow itself to be 
used for such a blatant political stunt.
    Mr. Jordan. Without objection.
    Ms. Duckworth. Thank you.
    I want to sort of touch back as someone who has a large 
number of manufacturers in my district. I am very, very 
concerned for small business owners. Ms. Engelbrecht, you are a 
small business owner. I congratulate you on that. They're the 
engine of our economy, even during the recession. It's the only 
part of our economy that continue to grow, and you certainly 
provided 30-plus employees with a good living so that they 
could take care of their families.
    Can you--am I--just answer yes or no. Am I correct in 
saying that you are in the business of manufacturing, heavy 
manufacturing of parts for oil drilling and the like? Is that 
correct?
    Ms. Engelbrecht. We're a high-precision machine shop, so we 
make small component parts.
    Ms. Duckworth. You make small component parts. So you use 
things like milling machinery and that type of thing.
    Ms. Engelbrecht. Computerized machinery, yes, ma'am.
    Ms. Duckworth. Okay. I have quite a few of those in my 
district, and I am actually somewhat worried that OSHA had not 
inspected you in 20 years. I would think that OSHA should be 
inspecting any manufacturing business on a regular basis, and 
that we would not go a whole 20 years without ever inspecting 
the health and safety environment for employees. And I 
personally--I know that you don't think that the allegations of 
not providing eye protection and the like is not a serious 
concern, but as someone who has been around a lot of heavy 
manufacturing, let me just say that it is concern.
    And I'm out of time. I yield back, Mr. Chairman.
    Mr. Jordan. Ms. Engelbrecht, in the 20 years prior to OSHA 
coming there, did you ever have anyone--any serious injury at 
your place of business?
    Ms. Engelbrecht. No, sir. And to be clear on the eyewear 
point, we do absolutely require eyewear to be worn. They just 
weren't happy with the kind we provided.
    Mr. Jordan. Someone probably forgot to put their goggles on 
one day, right?
    Ms. Engelbrecht. Well, forgot to put the goggles on. They 
identified an entry--or an entry point that they thought was an 
exit, which cost, I don't know, $4,300, if memory serves, 
something like that.
    Mr. Jordan. Thank you. We've all--we've all had businesses 
in our district have OSHA show up and find that they put a box 
in the aisleway that they forgot to move, and they get hit with 
a fine.
    Ms. Engelbrecht. Exactly what happened.
    Mr. Jordan. Gentleman from Tennessee is recognized.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Certainly appreciate you-all being here today, and just 
reflecting on the past 3 years in this committee here, I know a 
lot of politically-charged issues get brought forth. But 
listening to the testimony today really makes you think about 
what being an American means, what it should mean. And, you 
know, we can try to divert into questions about OSHA and other 
violations, but what I heard was two very impassioned 
testimonies from two Americans that wanted to exercise their 
freedom to publicly speak about their preferences in an 
election.
    We can sit and try to pretend that this didn't happen. We 
can go back and look at the statements. We can go back to May 
of 2012 when the IRS internal investigators said that there was 
substantial inappropriate bias going on. We can go to when Mr. 
Miller had his epiphany that this was going on. We can go to 
when the President said that this is inexcusable and 
intolerable; and Eric Holder, the same thing, this is 
unacceptable.
    And so, there's no question that this happened. We can't 
sit up here as Democrats and Republicans and deny that the IRS 
did not target people. They did. They apologized. There has 
been hearings. Ms. Lerner came in here, took the Fifth, and Mr. 
Sekulow talked about that earlier, and maybe we can talk about 
it again. But this is about our rights as Americans. That's why 
we are here today.
    I'd like to think that the people on the other side of the 
aisle as well as the people on this side would equally listen 
to Occupy Wall Street or liberal groups that were targeted by a 
Republican President. It's about the Federal Government using 
their power to suppress our rights as Americans, and that's 
wrong in any party, in any language.
    We're not a Third World country. I hope we're not a country 
that's run by a dictator that fixes elections. Sadly, we won't 
know what the outcome of the last election would have been had 
this targeting not taken place. We'll never know that. We won't 
know if the election would have been altered if we weren't 
misled by the YouTube video story about Benghazi. We won't know 
that. There's a lot of things that were done before the 
election that, now that it's over, people are saying, okay, 
well, now we got to clean up this mess, so let's pay attention 
to this IRS scandal, this targeting, and that happened.
    Well, it didn't happen for very long because it was in 
July, during an economic address at Knox College in Galesburg, 
Illinois, that President Obama charged the Republicans turning 
the IRS matter into part of an endless parade of distractions, 
political posturing, and phony scandals. I mean, I thought we 
were past that.
    What we're here today is to make sure you-all get a fair 
chance and a fair response to your questions. So, we have 
attorneys here today representing these clients. Have they 
gotten that chance yet?
    Ms. Mitchell. No, they have not. I mean, I represent many 
groups, and I talk to many groups. There's a particular group, 
Tea Party Patriots, they host a Sunday night conference call 
every Sunday night with grassroots groups from across the 
country, literally hundreds of people, who talk about things 
like what are some positive alternatives to the Affordable Care 
Act, and they hear speakers, and they are trying to educate 
themselves about issues so that, in turn, people in their 
communities or part of their groups can learn about what 
Congress is doing and have an impact on public policy. But many 
of those groups are the very same groups that were targeted, 
that were besmirched, that were treated and continue to be 
treated in a terrible manner, and now, through the IRS, is 
proposing to essentially silence permanently, and I--and that 
none of them have been interviewed by the FBI to hear the 
stories of what they went through.
    In Catherine Engelbrecht's case, in True the Vote's case, 
when it got its, I want to say, third round of questions from 
the IRS about 2 years ago this month, there were 102 questions 
when you take into consideration the subparts and the subparts' 
subparts; 102 questions, and that was almost 2 years after the 
application had been filed.
    And I have been doing this a long time, and I have never 
seen anything like it. I knew something was going on, and to 
say that it was boneheaded mistakes is to treat all of these 
people with utter contempt and disrespect and to deny what 
they've been through and what they are still going through. And 
I would implore the Democratic members of the committee and of 
the Congress to not fall in line and try to defend something 
that is indefensible and to treat this as some kind of partisan 
ballgame.
    We had this one brief shining moment last summer where both 
Democrats and Republicans came together, and Congress was doing 
its--intent upon doing its oversight duty, and the media was 
intent upon actually exposing wrongdoing even in this 
administration, and somehow that dissipated with that speech 
that you just referred to, and I find it very distressing.
    Mr. DesJarlais. Thank you.
    Mr. Jordan. I thank the gentleman.
    Ranking member of the full committee, the gentleman from 
Maryland, is recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Mitchell, I just--you know, we have interviewed a whole 
lot of people in IRS, and perhaps there's still more to be 
done. And again, I want to emphasize that the Members on this 
side of the aisle are just as concerned about every single 
taxpayer being treated fairly. And so we've seen the--we've 
listened, and we've seen the testimony, and so we just--it's 
not--and I'm sure we will--if there are things to be 
corrected--I know that there are a lot of things that have 
already been corrected based on the IG's report. And so, you 
know, I just want you to be assured that we care about these 
issues, too, you know. We have constituents who we want to make 
sure are treated fairly, too, no matter who they are, no matter 
who they are. And so I want to make that clear.
    I also want to go back to Mr. Meadows. I want to thank you 
for again yielding. And, Ms. Engelbrecht, I just--Mr. Meadows 
is right. There's no targeting over here. We were just trying 
to figure out--make sure that no one was unfairly being impeded 
from voting, and it's a very serious matter for me.
    But the letters that I sent you, some of them concern a 
report, and the Institute for Research and Education on Human 
Rights issued that report in 2012, and their report examined 
your organization's activities in North Carolina, particularly 
with respect to where your poll watchers were placed.
    The report said that your poll watchers,--and this is the 
report, and this is what we were trying to figure out whether 
it was true or not, Mr. Meadows, and it said, ``go to the polls 
on election day and aggressively challenge the registration, 
the identity, or eligibility of prospective voters.'' According 
to this report, your volunteers were concentrated in counties 
in North Carolina that have high percentages of African 
American and Latino populations. I want to ask you about this 
specific information in the report.
    First, of the 25 counties in North Carolina with the 
highest African American population, the report says that True 
the Vote and volunteers were sent to 24 of them. Is that 
accurate?
    Ms. Engelbrecht. I don't know, Congressman, because all 
True the Vote does is provide training. The way our electoral 
process works, citizens will choose their party or candidate of 
their choice to go and work on behalf of, but True the Vote has 
no control over where citizens end up ultimately working.
    Mr. Cummings. All right. And the report went on to say that 
True the Vote had poll watchers in 9 of the 10 counties with 
the highest Latino populations. So you wouldn't have that 
information either then.
    Ms. Engelbrecht. True the Vote provides training. We cannot 
place volunteers inside of the polls. Therefore, that report is 
fundamentally flawed.
    Mr. Cummings. All right. By contrast, according to the 
report, True the Vote had recruits in only 4 of the 25 counties 
with the lowest Latino population. And I assume that your 
answer would be the same for that; is that right?
    Ms. Engelbrecht. It would seem to me, Congressman, that a 
volunteer would be sent where there were volunteer needs.
    Mr. Cummings. All right. And who determines those needs?
    Ms. Engelbrecht. The party or the candidate that the 
citizen chooses to work on behalf of, or in some cases the 
county, when they need volunteers sufficient just to keep 
polling places open.
    Mr. Cummings. The report says you had only 2 volunteers 
covering all of the 10 counties with the fewest African 
American citizens.
    Ms. Engelbrecht. We had no volunteers covering any county. 
We provide training, Congressman.
    Mr. Cummings. Now, if the numbers in the report are 
correct, they indicate that poll watchers were concentrated in 
counties where there were more minorities. It looks like the 
organization, if the report were accurate, was selectively 
targeting minority voters, and I think you would agree that you 
don't want that, do you? You wouldn't want that? I'm not 
saying--I know you're saying that didn't happen, but I'm saying 
that's definitely not what you were wanting.
    Ms. Engelbrecht. No. The mission of True the Vote is to 
make sure that every American citizen, regardless of political 
party affiliation, has the opportunity to participate unimpeded 
in elections that are free and fair.
    Mr. Cummings. And on October 29th, your attorney wrote a 
letter saying this, ``We--we operate completely in the open for 
anyone and everyone available to see what we do when we do 
it.''
    Is that true?
    Ms. Engelbrecht. Absolutely.
    Mr. Cummings. And so, you know, obviously--I hear what 
you're saying, but you can understand that when we get a report 
like that, we are almost incumbent--I would think Republicans 
and Democrats would be concerned about those kinds of 
allegations, because those are the things that go to the 
fundamentals of this country, that right to vote. And you--you 
made it clear that you don't impede people from voting; is that 
right?
    Ms. Engelbrecht. No, sir.
    Mr. Cummings. Very well. Thank you very much.
    Mr. Jordan. I thank the gentleman.
    Ms. Engelbrecht, deep down, deep down, why do you think you 
had 15 visits from 4 Federal agencies in a 2-year timeframe 
after you--what--deep down, why do you think you were targeted?
    Ms. Engelbrecht. I think I was targeted because of my 
political beliefs.
    Mr. Jordan. Because of your conservative political beliefs.
    You know, I think it's actually, though, a little bigger. 
My guess is you were targeted because of your political 
beliefs, yes, but also because you were effective. It was 
working, right? True the Vote was having an impact. You were 
cleaning up voter rolls, right? You were educating people about 
how we should have free and fair and honest election. You were 
praised by attorney generals all over the country, secretary of 
states. I'm looking at this--I mean, it's--looking at you even 
had a program to--an outreach program to Hispanic Americans; is 
that correct?
    Ms. Engelbrecht. Absolutely.
    Mr. Jordan. They targeted you because it was working. They 
said, well, we can't have--we can't have this. Here's a 
conservative who's making an impact. That's why you were 
targeted. And all while this is going on, the President is 
saying things, after the Citizens United, and the President 
President is making all kinds of statements. He says--he says 
things like we got shadowy groups getting involved in 
elections. It says--this is August 21st, 2010--``Attack Ads Run 
by Shadowy Groups,'' foreign control corporations could be 
involved, this is a problem for democracy, a threat to our 
democracy.
    Ms. Gerritson, you haven't talked much. Let me ask you 
this. Is the Wetumpka Tea Party a shadowy group?
    Ms. Gerritson. No.
    Mr. Jordan. You're not secret, are you?
    Ms. Gerritson. No.
    Mr. Jordan. Everyone knows who you are down home, right?
    Ms. Gerritson. That's right.
    Mr. Jordan. You don't have any foreign corporations helping 
you out, do you?
    Ms. Gerritson. No. We don't even have any corporate money 
helping us.
    Mr. Jordan. Are you trying to threaten any democracy?
    Ms. Gerritson. No.
    Mr. Jordan. You're trying to promote democracy, right, just 
like Ms. Engelbrecht's doing?
    Ms. Gerritson. Right.
    Mr. Jordan. You want honest elections. You want people to 
respect the Constitution. Are you a threat at all to the 
democracy, problem for the democracy? Of course not. And yet 
you were targeted, and in Ms. Engelbrecht's case, 4 Federal 
agencies in a couple-year timeframe, none of them had ever had 
any interaction with her before, but suddenly she's filed for 
tax-exempt status, and she's having an impact, and you're 
having an impact, and suddenly the President's making all these 
statements, and here comes the full weight of the Federal 
Government down on two ladies exercising their constitutional 
First Amendment political speech right.
    And the minority says we shouldn't have this hearing and 
let you tell your story, and the minority tells us we shouldn't 
have Barbara Bosserman come in here, who's head of the 
investigation, and won't even give us the idea of who's heading 
it up if--and they haven't even talked to you, which makes me 
want to.
    I want to ask one other question here. Mr. Sekulow.
    Mr. Sekulow. Yes, sir.
    Mr. Jordan. One of the--one of the many questions that your 
clients and Ms. Mitchell's clients got--I'm just going to 
rewind.
    But there are all kinds of questions. I mean, we're talking 
about political--groups involving political activity, so they 
ask all these questions. One of the questions was do you have a 
relationship with any candidate for public office?
    Mr. Sekulow. Right.
    Mr. Jordan. Now, think about this. They're asking Ms. 
Gerritson----
    Mr. Sekulow. Right.
    Mr. Jordan. --Ms. Engelbrecht, and a boatload of other 
people across this country if they have a connection, but the 
person investigating this target has a connection with the most 
powerful individual in this country. Less than one-tenth of 1 
percent of the American people give maxed-out contributions to 
a political candidate; that's who's heading the investigation. 
Now, if that's not irony, I don't know what is.
    Mr. Sekulow. It's not only irony, in our view, and I said 
this again with no disrespect to Ms. Bosserman and her career 
at the Department of Justice----
    Mr. Jordan. I don't have any either.
    Mr. Sekulow. It raised serious ethical concerns that she 
may well have brought up, and the Department of Justice chose 
to ignore. But you look at the scope of the questions that were 
asked, which were way outside of legitimate inquiry, I mean, 
incredible.
    Mr. Jordan. I've looked at it.
    Mr. Sekulow. And you look at cases like NAACP v. Alabama, 
NAACP v. Flowers, and others, there's a whole host of them, 
because what was happening in those cases was exactly what was 
happening here. Government agencies were targeting groups to 
try to intimidate them into silence, in those particular cases 
the NAACP, by saying things like, we'd like to see your 
membership list, who do you talk to, what conversations with 
legislatures do you have.
    This has been going on since 1950. It didn't work out too 
good for the State of Alabama when they tried that with the 
NAACP. It shouldn't work out for the Department of Treasury, 
IRS either.
    Mr. Jordan. Great point. I just got one other question for 
you, and then we got to--we're going to have to recess and go 
vote.
    This is all going on. You're an individual who's 
represented--as you pointed out to the minority, you've 
represented the American Civil Liberties Union, you've 
represented Democrats, you've been in front of the Supreme 
Court, you've seen all kinds of things. You'll see history----
    Mr. Sekulow. Yes, sir.
    Mr. Jordan. --including this same kind of thing.
    I want to know, do you think this changed the impact of the 
2012 Presidential election?
    Mr. Sekulow. I think there is evidence--American Enterprise 
Institute and others have put forward evidence that the groups 
being intimidated, were it even not recognized, had a 
significant impact on that election. I think it's very well 
possible. We don't want to be--we haven't had a trial on this.
    Mr. Jordan. I understand. I'm just asking you----
    Mr. Sekulow. It's very well possible that the 2012 election 
was impacted by an aggressive, continuous, and systematic and 
intimidation factor by the IRS with applications still pending, 
Mr. Chairman, for 3 years.
    Mr. Horsford. Mr. Chairman, may I ask, you're going to 
recess before the votes. We have 15 minutes before.
    Mr. Jordan. You want to go is what you're saying?
    Mr. Horsford. I think, yes, I would.
    Mr. Jordan. All right. The gentleman is recognized for 5 
minutes, and then we'll have to recess then and come back.
    Mr. Horsford. Thank you, Mr. Chairman. And I have 5 
minutes, so I'm going to be quick.
    First, I want to say to the chairman, it's unfortunate 
that, one, our Ranking Member Mr. Cummings was attacked in this 
hearing, and that the chairman provided an opportunity for two 
witnesses to be given a platform to do that. We have never done 
that. When the chairman of this committee has called for in 
his----
    Mr. Jordan. Would the gentleman yield?
    Mr. Horsford. No, I will not. I have 5 minutes.
    Mr. Jordan. I understand that.
    Mr. Horsford. No, I will not yield, Mr. Chairman. I have 5 
minutes.
    Mr. Jordan. But I'm the chairman. Let me just say one 
thing.
    Mr. Horsford. It's my time, Mr. Chairman. I'm not yielding 
my time. I have 5 minutes.
    Mr. Jordan. The gentleman just asked me not to recess.
    Mr. Horsford. Mr. Chairman, I have questions for the 
witness. Can I go to my questions?
    Mr. Jordan. I can recess if you want, but I would rather 
you just yield me 30 seconds. I was going to make a point about 
Mr. Cummings' issue. The gentleman yield?
    Mr. Horsford. For the purpose of responding to why the 
ranking member was attacked.
    Mr. Jordan. I don't think the ranking member was attacked, 
but I instructed our staff a couple of days ago to encourage 
Ms. Engelbrecht and Ms. Mitchell not to proceed with the ethics 
complaint. I further talked to them this morning not to proceed 
in that matter. We want the focus of this hearing to be the 
fact that these individuals were systematically harassed by 
their government, and that's what the focus is. You guys keep 
wanting to bring this issue up, and I've encouraged them not to 
pursue that.
    Mr. Horsford. Well, I don't know how you can----
    Mr. Jordan. The gentleman is recognized.
    Mr. Horsford. Thank you.
    I don't know how in one breath you can encourage them not 
to do it, and then the next breath give them the very platform 
to do it.
    Let me go to my questions.
    Mr. Jordan. Because for----
    Mr. Horsford. Let me go to my questions.
    Mr. Jordan. --for 3 years they've been targeted by four 
separate agencies.
    Mr. Horsford. And I agree.
    Mr. Jordan. That's a side that needs to be told.
    Mr. Horsford. And I agree with that, Mr. Chairman. I agree 
with the fact that groups, whether they're Tea Party groups, 
the NAACP, or Greenpeace, have been targeted by the IRS. 
There's no----
    Mr. Jordan. That's not the fact. That's not the fact.
    Mr. Horsford. There's no disputing the fact that there was 
wrongdoing, and there's no disputing that we should be working 
to fix that, but that's not what happened here today. What 
happened here today was an ongoing theatrics to continue the 
partisanship about relitigating an election that is over.
    Now, the question that I have and the question that I want 
to represent is I'm not here as a Democratic; I'm here as a 
representative of the constituents of Nevada's fourth that 
elected me to serve them, whether they are Democrats, 
Republicans, Independents, or nonpartisans. I have Tea Party 
constituents in my district, and I respect their right, as I 
respect any other constituent, and I am not here to push an 
agenda, but to get to the facts. And so I am deeply concerned 
about what has transpired, and I want to fix it, but that's 
never what this committee ever gets to because we spend more 
time attacking our own members.
    But regardless of which party holds power, it's 
unacceptable, it needs to stop, and we need to fix it. One way 
I think we should be working to fix it is by addressing the 
inconsistency of the regulation for how 501(c)(4)s are treated 
to begin with, and according to statute, if they engaged 
exclusively on social welfare activities, they may qualify for 
501(c)(4) status. However, it is not how it has been applied in 
that way that has allowed organizations to engage in some 
political activity as long as it is not the primary activity of 
that organization.
    So, in my opinion, political activity should be strictly 
limited based on the statute, and we should completely prohibit 
any 501(c)(4) from making expenditures, supporting or opposing 
a candidate for public office, or making monetary or in-kind 
contributions to political action committees or any other 
entity engaged in campaign activity. If we were able to get to 
that point, there wouldn't be this ambiguity to begin with.
    Now, we've heard issues where, unfortunately, some of the 
groups who were--who were reviewed may not have been following 
this standard. Ms. Engelbrecht, your group, True the Vote, on 
your Web site it says one of your top goals last year was to, 
``trim the early voting period'' is that right?
    Ms. Engelbrecht. I'm not--I'm not sure what you're 
referring to.
    Mr. Horsford. On your Web site it indicates--are you guys 
against early voting? Do you oppose early voting in States?
    Ms. Engelbrecht. No, absolutely not. However, there are 
states that have months of early voting, and I think that that 
could be looked at for a number of reasons, yes.
    Mr. Horsford. But on your Web site it does not say, ``Trim 
the early voting period.'' I have a copy of your Web site. I 
mean, it's----
    Ms. Engelbrecht. Taken out of in that context, it may say, 
in fact, but for the record, early voting is an important part 
of the process. I think there's value in this in determining 
whether or not a month before the election day early voting is 
really necessary.
    Mr. Horsford. Well, during the 2012 election we saw lines 
stretching so long that people couldn't even get to vote, and 
many people were discouraged. And from that President Obama 
commissioned a bipartisan commission, the head of his election 
and the head of Mitt Romney's election working in a bipartisan 
way, to come up with recommendations, and their conclusion was 
actually that we need to expand early voting to help voters. 
Would you agree that that should be an approach that should be 
taken based on the recommendations of that commission?
    Ms. Engelbrecht. I--I guess I'm a little confused about why 
we would want to try this at this point in this hearing, but in 
any case, I certainly respect the findings of the commission. 
Our election process is deserving of a hearing unto itself.
    Mr. Horsford. Thank you.
    I'll conclude by just asking if you would respond to the 
request by the ranking member on the statistics around where 
people were placed, particularly in the North Carolina voting. 
Will you provide that information to the committee as it was 
previously requested?
    Mr. Jordan. The gentleman's time is expired.
    Mr. Horsford. I have a question for Ms.----
    Mr. Jordan. I know, but----
    Ms. Engelbrecht. I'm glad to respond.
    Mr. Jordan. Can you quickly? Go ahead.
    Ms. Engelbrecht. The response is I can't do that. There 
is--we do not place poll watchers. That was the fundamental 
misunderstanding that I tried to communicate to the Ranking 
Member when I asked to visit with him.
    Mr. Jordan. People are allowed to go where they want to go 
in America still. You can't say everything they want to say, or 
the IRS might come after them. They are still allowed to go 
where they want to go, right, Ms. Engelbrecht?
    Ms. Engelbrecht. They can always take the Fifth, can't you?
    Mr. Jordan. Well, they can do that, too, yeah.
    We are going to have to recess. We want to thank our 
witnesses. There's restroom facilities that you can get to. 
We'll be back in approximately 30 minutes.
    [Recess.]
    Mr. Jordan. The committee will--I should have looked up. 
Wait for Ms. Engelbrecht, too. The committee will be in order.
    Again, I want to thank you all for being here. What you 
have been through is something that is just--look, we 
appreciate your courage. We appreciate what you have--your 
willingness to come here and take some of the--take some of the 
questions that you had to take. We appreciate it. And I 
recognize the gentleman from Arizona for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    Before I get to my questions, I'm sad to see my colleagues 
aren't over here on the other side of the aisle, because I 
think it would be nice to see the application of us drilling 
the Tides Foundation in the same place that you are. That would 
be a wonderful conversation, I think. So, but thank you very 
much, Mr. Chairman for the question, you know, for this 
opportunity.
    This is a serious issue in which the executive branch has 
abused its powers for political gain. My constituents in 
Arizona are mortified and angry. Congress must ensure that the 
investigation into the targeting of these groups is being 
conducted in a thorough, timely, and appropriate fashion. So 
I'm going to ask some questions very quickly to each of the 
witnesses, but I have a few to get through, so if you can keep 
it pretty concise, I think it will be pretty self-explanatory.
    Would the witnesses agree that the administration and the 
enforcement of the law should be done impartially and without 
regard to political affiliation?
    Ms. Engelbrecht. Absolutely.
    Ms. Mitchell. The Constitution requires it.
    Ms. Gerritson. I agree.
    Mr. Sekulow. Yes, sir.
    Mr. Gosar. So real justice should be blind?
    Ms. Engelbrecht. Absolutely.
    Ms. Mitchell. Yes, sir.
    Mr. Gosar. Do the witnesses recall President Obama and 
Attorney General Eric Holder expressing their supposed outrage 
that the IRS would target organizations that do not share their 
political views?
    Ms. Mitchell. Yes. May 15th.
    Mr. Gosar. Do you happen to share in their outrage?
    Ms. Gerritson. Yes.
    Ms. Mitchell. Oh, absolutely.
    Ms. Engelbrecht. Absolutely.
    Mr. Gosar. So do I. And so I did find it terribly ironic 
that the President and the Attorney General expressed such an 
apparent outrage over this type of behavior, only later to 
assign the task to an investigator that is biased towards the 
administration.
    Yes, Miss Barbara Bosserman, one of the lead investigators, 
donated nearly $7,000 to the President and the Democratic 
National Committee, and while I believe in everyone's right--
it's everyone's right to donate political donations, I do not 
believe that she is the best fit to lead in this investigation 
and potentially embarrass her party or the man she wanted to be 
President.
    Some might say the Department of Justice agrees that Ms. 
Bosserman leading the investigation is inappropriate. The 
committee asked the DOJ to allow Ms. Bosserman to attend the 
hearing today, and the answer to the question was they refused 
outright. DOJ officials had the nerve to claim that making Ms. 
Bosserman available to the Oversight Committee was tantamount 
to the targeting of a Federal employee. The use of the word 
``targeting'' was not incidental. The DOJ was explicitly 
attempting to draw similarities between the IRS targeting of 
conservative groups to the House Oversight Committee targeting 
Federal employees.
    To make such an assertion is to imply that the oversight 
inquiries are inherently partisan, and therefore the 
administration can and should refuse to provide witnesses to 
answer questions when called upon.
    So I ask you witnesses, would you agree with that 
assessment?
    Ms. Mitchell. That they--yes. That they were targeting?
    Mr. Gosar. Yes.
    Ms. Mitchell. Yes, they are targeting. They certainly 
targeted many, many of our clients.
    Mr. Gosar. But they are also trying to utilize it like--
that we on this committee are actually targeting Federal 
employees. I mean, you can see a very strong----
    Ms. Mitchell. They have twisted the statute. They have 
twisted the term.
    Mr. Sekulow. It is actually--what they are doing is 
conflating two issues. One is the IRS engaged in a systematic 
targeting, acknowledged systematic targeting. The selection of 
the Department of Justice attorney to head the investigation, 
they are trying to turn the targeting because we raised the 
concern of bias, which, of course, as a defense counsel, in our 
particular case, or as the plaintiff in lawsuit, and there is a 
Federal investigation, of course we are going to bring that up.
    So they are trying to turn what is an obligation of a 
lawyer to not have the appearance of impropriety, and they are 
trying to turn that as individuals on this committee targeting 
this lawyer, which has never been anybody's----
    Mr. Gosar. Yeah, I agree with you. So, but let me switch 
gears for a minute because you just took me right to where I 
wanted to be.
    Do the witnesses happen to know whether it is legal or 
illegal for an IRS employee to target groups based on political 
affiliation or ideology?
    Mr. Sekulow. They acknowledged it. I mean, Congressman, as 
you know, the IRS--this is not a case where we are trying to 
figure out what the IRS did. They have said affirmatively, we 
targeted by name, we created a ``be on the lookout'' list, and 
they said, we were wrong. That was incorrect, ``We apologize.'' 
That's what Lois Lerner said.
    Mr. Gosar. Well, but then according to Steve Miller, the 
former Commissioner of the IRS, he actually said it is 
absolutely not illegal. He made those very, very comments.
    Mr. Sekulow. Yeah, well, I argued a case to the Supreme 
Court of the United States actually dealing with viewpoint 
discrimination, and all nine Justices said it was illegal.
    Mr. Gosar. Yeah. Well, that's why we have to rephrase the 
bureaucracy and the bureaucrats----
    Mr. Sekulow. Yes, sir.
    Mr. Gosar. --into good behavior. I actually put a bill 
called the IRS Anti-Abuse Act, which would make and codify 
political affiliation or ideology as a protected class in the 
IRS--the Internal Revenue Code, but also expressly prohibits an 
employee from being threatened to audit an individual or a 
group due to arbitrary, capricious, or politically motivated 
reasons. Is it your recommendation that such provisions should 
become law?
    Mr. Sekulow. I think so. I think right now the IRS is 
institutionally incapable of self-correcting, so legislative 
oversight is necessary.
    Ms. Mitchell. Congressman, I would like to add that I just 
received a text a moment ago in the recess from a person who 
said: I built a Web site for our local Tea Party group, and now 
I have been audited by the IRS. I have heard stories from 
people all over the country about having for the first time in 
their lives become somewhat politically active, or active in 
advocacy activities, and suddenly they have been audited, or 
their business has been audited. And I just have to think that 
this cannot be coincidental. And somebody needs to be doing the 
statistical analysis of those who have been selected for audit 
over the past 4 years.
    Mr. Gosar. Absolutely.
    I want to close real quickly, sir, for your indulgence. I 
will close by noting again that the IRS Commissioner has now 
approved $62.5 million in bonuses to the IRS employees for 
their work in 2013 to boost their morale. How absurd. I would 
say that those millions might be best used at the IRS to boost 
the ethical training and boost awareness of the United States 
Constitution.
    Thank you, sir. I yield back.
    Mr. Meadows. [Presiding.] I thank the gentleman from 
Arizona and will go to the gentleman from Michigan Mr. 
Bentivolio.
    Mr. Bentivolio. Good afternoon, Mr. Chairman, and thank 
you. And thank you, distinguished members of the subcommittee 
and those testifying before us today. Thank you very much.
    We appreciate hearing all of these stories from our 
witnesses, and it's awful what has happened to you. And hearing 
you and your testimony and those from my own district, it 
appears that the President has a war on the Constitution. You 
know, I always believed the IRS was supposed to be objective 
and treat everybody equally, but under this administration and 
IRS, I guess, some groups are more equal than others.
    It has almost been 9 months since this has been made 
public, and we are no further along than when the initial 
report was released. Instead, we get typical Washington 
doubletalk, side-stepping the issue, happy talk, and verbal 
moon walking. These individuals testifying before us today 
deserve to have action taken. We need to hold this 
administration and the IRS accountable, and I'm committed to 
making that happen.
    In the hearing that was held in May of 2013, I asked Mr. 
Shulman of the IRS numerous questions about the Constitution 
and Bill of Rights. I asked if IRS agents take classes on the 
Constitution or Bill of Rights, and he didn't know. Mr. Shulman 
is a lawyer, and I asked him if he knew the 1st, 2nd, and 19th 
amendments. He told me he didn't have the Constitution 
memorized. That's pretty bad.
    I'm guessing--Ms. Engelbrecht, right?
    Ms. Engelbrecht. Yes, sir.
    Mr. Bentivolio. Thank you.
    I'm guessing you're all familiar with the Constitution and 
Bill of Rights. Can you tell me what the First Amendment is.
    Ms. Engelbrecht. First Amendment gives us freedom of 
religion, and freedom of speech.
    Mr. Bentivolio. Right, and a few others. How about the 
Second Amendment?
    Ms. Engelbrecht. The right to keep and bear arms.
    Mr. Bentivolio. Nineteenth Amendment?
    Ms. Engelbrecht. Gave women the right to vote.
    Mr. Bentivolio. My favorite amendment, yes.
    Do you think IRS agents should have the right or should 
have to take training in the Constitution and Bill of Rights?
    Ms. Engelbrecht. Absolutely.
    Mr. Bentivolio. Now, I want to ask you about Tea Party. I'm 
a member of the Tea Party, but I can't really say that because 
I never filled out an application to join the Tea Party. Is 
that something--do you have to fill out an application to join 
the Tea Party?
    Ms. Engelbrecht. No. Tea Party is a frame of mind.
    Mr. Bentivolio. That's right. You just show up, and you 
listen to what they're saying, and if you agree with it, you 
know, you can join in the conversation, learn more possibly, or 
just leave, correct?
    Ms. Engelbrecht. That's correct.
    Mr. Bentivolio. You are peacefully assembling to address 
some grievances and ask some questions. Because I think, if 
you're like me, you felt something was wrong; something was 
wrong in Washington, but you couldn't really put your finger on 
it. Is that a correct assumption?
    Ms. Engelbrecht. That's absolutely the correct assumption. 
And I assumed that we could ask questions.
    Mr. Bentivolio. That's right, you can. And, you know, as a 
former teacher, kids would come in and they would ask 
questions. I never--you know, I tried to answer those questions 
as best I could, and if I didn't know the answer, I will try to 
get the answer for them. Is that pretty much what you're doing?
    Ms. Engelbrecht. That's what I'm trying to do.
    Mr. Bentivolio. Right, I understand. And in civics class--
do you remember civics class?
    Ms. Engelbrecht. I remember--yes, sir.
    Mr. Bentivolio. A classroom full of kids from all kinds of 
backgrounds, you name it, and he or she, the civics teacher, 
said, you have an obligation to get involved in what's going on 
in the world.
    Did you ever hear something like that or words to that 
effect?
    Ms. Engelbrecht. That's how I was raised.
    Mr. Bentivolio. That's right. You were raised----
    Ms. Engelbrecht. You have an obligation to give back to 
your community.
    Mr. Bentivolio. That's how I was raised and so many other 
Americans. And now that you're doing that, the government, the 
IRS, OSHA--and I have no doubt because I have experienced it 
myself--when my fellow teachers found out I was running for 
office with an R after my name, suddenly couldn't do anything 
right. Never got a complaint. And all of a sudden I'm a 
conservative.
    You know, I have a great belief that this country, the 
greatest--well, that this country--how can I say this--the 
greatest thing about this country is our cultural, religious, 
and ethnic diversity. And, you know, I believe the other side 
agrees with that, too, unless, of course, you have an R or 
you're conservative after your name. Would you agree with that 
assumption?
    Ms. Engelbrecht. I think it's a correct assumption that the 
best thing about this country is its people, and maybe we've 
lost our way for a little bit, but we're finding it back.
    Mr. Bentivolio. God bless you. Thank you for what you're 
doing. I just want you to know, my office has a door that's 
always open. You are always welcome, as is anybody else. Feel 
free to stop in at any time.
    Ms. Engelbrecht. Thank you.
    Mr. Bentivolio. Thank you, Mr. Chairman, I appreciate it, 
and God bless you, all of you.
    Mr. Meadows. I thank the gentleman from Michigan, and I go 
now to the gentleman and friend from Texas, the Honorable Judge 
Poe.
    Mr. Poe. I thank the chairman and the ranking member for 
letting me sit on the committee today.
    Ms. Engelbrecht, I have some questions for you. Short 
answers would work okay.
    Ms. Engelbrecht. Okay.
    Mr. Poe. Have you--after you started King Street Patriots 
and True the Vote, were you visited by the FBI?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Were you visited by the FBI terrorist squad or 
whatever they call themselves, that investigate terrorists?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. How many times did you have either meetings or 
conversations with the FBI?
    Ms. Engelbrecht. There were six inquiries.
    Mr. Poe. Were you visited by OSHA?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. How many times?
    Ms. Engelbrecht. Once.
    Mr. Poe. The ATF?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. How many times were you visited or audited by the 
ATF?
    Ms. Engelbrecht. Twice.
    Mr. Poe. And you were also visited by the Texas Commission 
on Environmental Quality?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. The State agency of the EPA; is that correct?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. The IRS, how many times?
    Ms. Engelbrecht. Two personal audits, two business audits.
    Mr. Poe. At some point did you believe you were under some 
criminal investigation?
    Ms. Engelbrecht. At some point I didn't quite know what to 
think.
    Mr. Poe. Did you come to me and ask for a FOIA request to 
see if you were being investigated criminally?
    Ms. Engelbrecht. Yes, sir, I did.
    Mr. Poe. And we got a response from the FBI?
    Ms. Engelbrecht. Yes, sir, we did.
    Mr. Poe. And they said what?
    Ms. Engelbrecht. They said that they were not.
    Mr. Poe. They were not investigating you for criminal 
enterprises----
    Ms. Engelbrecht. Correct.
    Mr. Poe. --to your knowledge?
    Ms. Engelbrecht. Correct.
    Mr. Poe. Do you think that--well, let me ask you this: Were 
you, at any time after you started these two groups, harassed 
by so-called liberal or progressive groups?
    Ms. Engelbrecht. Yes, sir, on a very regular basis.
    Mr. Poe. And what does that mean, ``harassed''?
    Ms. Engelbrecht. Well, that can mean many things, but 
speaking falsehoods, bearing false witness, trying to take 
something like election integrity and turn it into something 
that divides us instead of unites us.
    Mr. Poe. And in your opinion, were you harassed by 
legislators?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Do you believe that there should be a special 
prosecutor to investigate the IRS?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. In 2013, on May the 14th, I sent Eric Holder a 
letter. Are you aware of the letter that I sent him asking for 
a special prosecutor and asking a bunch of questions about the 
IRS?
    Ms. Engelbrecht. Yes, sir, I am.
    Mr. Poe. I have not received a response from Eric Holder on 
these. Have you received a response?
    Ms. Engelbrecht. No, sir.
    Mr. Poe. Were you asked by the FBI--or the IRS, rather, to 
produce all of the tweets that you ever tweeted?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Facebook posts?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Did you comply with that?
    Ms. Engelbrecht. I don't do Facebook or Twitter.
    Mr. Poe. The IRS, they wanted to know all of the places 
that you spoke publicly.
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Did they want copies of your speeches?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Let's get this correct. The Federal Government 
wanted a copy of a citizen's speech in a public forum.
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Did they want to know where you were going to 
speak in the future?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Did they want to know the names of the groups you 
spoke to?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Did they want the mailing lists or the attendee 
list of the people that were in attendance at the places that 
you spoke?
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. They wanted the speech. They wanted to know where 
it was. They wanted to know what she said. They wanted to know 
who was there.
    Ms. Engelbrecht. Yes, sir.
    Mr. Poe. Do you find that a little oppressive?
    Ms. Engelbrecht. I find it highly political.
    Mr. Poe. Do you think that the United States Constitution 
lets the Federal Government swoop in and kill the right of free 
speech by demanding all of this information?
    Ms. Engelbrecht. No. That's not what the Constitution was 
built to do.
    Mr. Poe. I had a chance to be in the Soviet Union back in 
the 1980s. The people were totally oppressed by government. 
They were afraid of government. They were afraid to say 
anything or write anything about government because government 
would punish them, take their job, put them in jail, harass 
them, take their money, all of those things.
    Did you ever think that we would see in the United States 
of America a government, through its agencies, the IRS, the 
FBI, OSHA, EPA, ATF, take on a citizen trying to keep you from 
criticizing government? Did you ever think that you would see 
that in this country?
    Ms. Engelbrecht. No, sir, I never thought that I would 
see--I never thought that I would see that, but I do see it, it 
is happening, and I hope that the American public sees this for 
what it is.
    Mr. Meadows. The gentlewoman will suspend.
    The chairman is responsible under the rules of the House 
and the rules of this committee to maintain order and preserve 
the decorum in the room. So we ask everybody to abide by that.
    Go ahead, Ms. Engelbrecht.
    Mr. Poe. I didn't hear your answer, I'm sorry.
    Ms. Engelbrecht. I--my answer was no, I never believed that 
this could happen, and for many years I didn't want to believe 
that by all appearances what seemed to be happening was, in 
fact, happening. And it is my hope now that we don't gloss over 
these moments, that we see them in their fullness for what they 
are, because it threatens to undermine the very fabric of this 
Republic, sir.
    Mr. Poe. Ms. Gerritson, did you ever think that that 
would--the things that I have mentioned that happened to you 
and Ms. Engelbrecht, did you ever as an American think that you 
would see government swoop down and punish you for exercising 
the right to criticize?
    Ms. Gerritson. Absolutely not.
    Mr. Poe. How does that make you feel as an American 
citizen?
    Ms. Gerritson. Angry.
    Mr. Poe. And you testified that you don't think we're doing 
enough to solve this oppression?
    Ms. Gerritson. Correct.
    Mr. Poe. Lastly, if I may, Mr. Chairman, my grandmother, 
who was my most influential person, a Democrat, by the way, to 
my friends over there, used to say there was nothing more 
powerful than a woman that has made up her mind. I think we 
have two of those--three of those women right here today. Thank 
you for being here. Thank you for your fight, because, you see, 
America is worth fighting for.
    Ms. Engelbrecht. Amen.
    Ms. Mitchell. Amen.
    Mr. Poe. And I yield back.
    Mr. Jordan. I thank the gentleman. I walked in right at the 
end of that, but it sounded like a great presentation. I call 
it ``mom's on a mission.'' If mom's on a mission, look out. 
Good things are going to happen. So I echo what the gentleman 
from Texas had to say.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    So I have sat through today's hearing, and, first of all, I 
want to say I appreciate all of you coming. Your viewpoint is 
appreciated. It is understood. I wish we had opposing 
viewpoints here today for a fuller discussion, but that doesn't 
discount the value of your viewpoint.
    Now, one thing I wanted to raise was I think one or more of 
you have brought up the idea that people have said that there 
is no evidence of wrongdoing at the IRS; that there is no 
evidence of corruption, or however you want to say it; and that 
that is inappropriate because the investigation is ongoing.
    Which one of you said something like that?
    Mr. Sekulow. I did.
    Ms. Mitchell. All of us.
    Mr. Cartwright. Professor Sekulow, I think.
    Mr. Sekulow. Mr.--Jay, is fine.
    Mr. Cartwright. It's a good point, Jay, and it's something 
that we hear both ways. We as Americans are used to TV 
reporters putting microphones in prosecutors' faces and 
investigators' faces, police chiefs' faces, asking for details 
of an investigation. And what is the phrase that they all 
intone always? I can't comment on an investigation--ongoing 
investigation.
    And as Americans we understand that, because you can 
prejudice an investigation if you release details, if you give 
up clues, if you can--you can let guilty people off the hook if 
you do that, if you comment on ongoing investigations. So I 
think we as Americans understand that.
    But I think it works both way, doesn't it? Before you 
impugn an investigation, before you condemn an investigation 
for using shoddy practices or unfair viewpoints, or whatever it 
is, before you attack an investigation, by the same token you 
want to wait until the end of it to see how it comes out.
    And to that point I want to ask, have--do any of you have 
information that this investigation is over, that it is 
complete at this point? If you do, weigh in.
    Mr. Sekulow. Let me say from my perspective, because we 
have been involved in the situation since its outset, with 
regard to the investigations, two aspects. There is an ongoing 
Department of Justice investigation, and then, of course, you 
have the committee's investigation.
    On the Department of Justice investigation, I think it's 
important to point this out. The wrongdoing by the IRS was 
acknowledged by the Internal Revenue Service, and for that 
reason, Congressman, it's different than a situation where you 
are trying to determine if, in fact, there was wrongdoing. Here 
the wrongdoing was acknowledged by the IRS. They offered, as I 
said, the apology for it. But they acknowledged they did 
inappropriate targeting. That's number one. So the----
    Mr. Cartwright. I want to say, Professor Sekulow, we on 
this entire committee, on both sides----
    Mr. Sekulow. Right.
    Mr. Cartwright. --were in a high state of outrage when we 
first found out about it.
    Mr. Sekulow. Yes.
    Mr. Cartwright. But the answer is that no, we have not 
heard from the Justice Department that they are complete in 
their investigation. And I want to make the point that maybe, 
just maybe, it would make sense for all of us as Americans to 
step back and let them do their work before they attack--before 
we attack their methods or their conclusions.
    Mr. Sekulow. Well, then, perhaps----
    Mr. Cartwright. I only have limited time.
    Mr. Sekulow. I understand.
    Mr. Cartwright. The second point I wanted to make, there 
have been references to Ms. Bosserman, Barbara Kay Bosserman, 
who was invited to come, but did not come today. It is highly 
irregular, it is really unprecedented, to haul an investigator 
in before a congressional committee in the middle of an 
investigation for the very same reasons I just discussed, 
because it can prejudice an investigation, because it can 
really foul it up. And that's why we don't do that.
    But some of you, one or more of you, have said that Ms. 
Bosserman was leading the investigation. And I wonder, is any 
of you privy to who is leading the investigation, because 
Attorney General Holder testified, I believe it was in the Ways 
and Means Committee--no, I believe in the Senate he testified 
that Ms. Bosserman is not, in fact, leading that investigation. 
So if one or more of you is privy to information that she is, 
in fact, the lead on this investigation, now is the time to 
share your information with us.
    Mr. Sekulow. Well, let me do that to clarify this for you, 
Congressman. Now, we, our office, and I believe we are the only 
ones so far, had a conversation with the Department of Justice. 
The highest-ranking official on that call was Ms. Bosserman. 
And, again, I want to be very clear, and I appreciate you 
giving me a moment to do this. We are not disparaging her 
credentials at all. It has raised issues, significant issues, 
but I also think it is important to point out that with regard 
to her relationship within the Department of Justice, she is a 
senior official in the Department of Justice and the highest-
ranking member of the Department of Justice that we work with.
    Mr. Cartwright. So what you're saying is that you suspect 
that she may be in the lead of this investigation, but the 
truth of----
    Mr. Sekulow. We were told that she is.
    Mr. Cartwright. --the matter is that you don't know, and, 
in fact, Attorney General Eric Holder has said that she is not. 
So do you mean to really come in here and call the Attorney 
General of the United States a liar?
    Mr. Sekulow. With due respect, nobody has called the 
Attorney General of the United States a liar. What I have said 
is this: We have been told that the highest-ranking official at 
the Department of Justice, Congressman, is Ms. Bosserman. That 
is what we have been told by the Department of Justice.
    Mr. Jordan. Mr. Sekulow and Mr. Cartwright, the Attorney 
General didn't say that she was not the head of the 
investigation.
    Mr. Sekulow. That's right. He did not know is what he said.
    Mr. Jordan. He said she's part of the team. What Mr. 
Sekulow has said is she's the highest-ranking official part of 
the team, which would lead one to believe she is heading the 
investigation. Plus we have what took place in practice. People 
we have interviewed, the committee staff has interviewed, which 
your minority staff was in those same interviews, told us the 
person asking them the questions when Justice Department 
interviewed them was Barbara Bosserman.
    Mr. Sekulow. Correct.
    Mr. Jordan. So any logical person, anyone with a brain can 
figure out she's heading the investigation. The only one that 
won't admit that is the Attorney General and the Democrat 
members of this committee. Anyone can figure that out. Of 
course she's heading the investigation. And, oh, by the way, 
and this is the underlying point, she gave $6,750 to the 
President and the Democratic National Committee, and she should 
have recused herself by the plain language of the ethics rules 
in the Justice Department. And you can defend her, and you can 
send me a letter and say she can't--she shouldn't come here. 
Don't subpoena her. Don't bring her in to answer the questions. 
You can do all that, and you can also say, no liberal groups 
were invited. In fact, I would ask you, tell me one liberal 
group you wanted to invite.
    Mr. Cartwright. Let me back up a second.
    Mr. Jordan. Do you have a name of a liberal group you want 
to invite here? Tell me one liberal group that's targeted that 
that you know the name of that you want to invite here.
    Mr. Cartwright. The point I'm trying to make is this is----
    Mr. Jordan. I can point to 41 Mr. Sekulow knows. I can 
point to True the Vote. I can point to the Wetumpka Tea Party 
in Alabama. Tell me one you can point to.
    Mr. Cartwright. It's--your opinion is well taken, the 
opinions of the testifying witnesses are well taken, but that's 
what they are. They are opinions about who is leading this 
investigation, and we here in the Oversight and Government 
Reform Committee believe in dealing in facts.
    Mr. Jordan. Mr. Sekulow. Taking back my time----
    Mr. Sekulow. Congressman, it is a serious charge. We have 
been told--maybe you know something I don't. We've been told 
that she is the lead for the Department of Justice on these 
investigations including not just with witnesses that we may 
produce, but that you all have produced. So maybe they have 
told you something we don't know, or maybe they are not telling 
us the truth.
    And also, I just would add the point here, you're talking 
about prejudging an investigation? The President of the United 
States said not one smidgeon of corruption. That's very 
difficult----
    Mr. Cartwright. That's what I said leading into it. It's 
fair to criticize him for that, but by the same token, let's 
all stand back and wait until the end of the investigation and 
reach a measured and reasoned evaluation.
    Mr. Sekulow. Congressman, I don't have the luxury of 
standing back. I'm in Federal court against the IRS. I don't 
have that luxury. I've got 41 clients. I don't get the luxury 
to sit back.
    Mr. Jordan. I want to thank all of you again for being 
here. I know the Engelbrechts have a--the gentleman from Texas 
is recognized.
    Mr. Poe. I ask unanimous consent to insert into the record 
the three-page letter I sent to Attorney General Eric Holder on 
May 14, 2013, asking for a special prosecutor, where he did not 
respond. I ask unanimous consent.
    Mr. Jordan. Without objection, I appreciate that. I 
appreciate that, Judge.
    Mr. Jordan. Again, the Engelbrechts have a plane to catch. 
I know--quickly.
    Ms. Mitchell. I have one question. I have one question.
    Mr. Jordan. Go ahead.
    Ms. Mitchell. I think there's a difference here between--
and with all due respect to the ranking member, there is no 
question that these groups, my clients, many more who are--many 
more people, hundreds of groups, hundreds of groups involving 
thousands of citizens, there is no debate about the fact that 
they were subjected to a process which was instituted within 
the IRS in late 2009 or early 2010 which changed the historic 
procedural manner that is published on the Web site of the IRS, 
that is the publicly available process that is supposed to be 
followed in reviewing applications for exempt status. There's 
no question that that happened.
    So what I think when you're saying the question of 
wrongdoing, that is the wrongdoing. We have--we're supposed to 
be a Nation of laws, and the rule of law is that the process is 
published. Anybody who applies is subjected to the same 
process, the same procedures, and something changed inside the 
IRS, and that happened. There's no debate about that.
    Mr. Jordan. Right.
    Ms. Mitchell. And that was wrong.
    Now, whether it rises to a criminal offense, I have 
mentioned several things that are criminal offenses. Those are 
the things we take exception to that the Justice Department 
needs to be investigating, that they really don't--they really 
haven't, to our knowledge or satisfaction. And people are 
calling for the appointment of special counsel. But let's not 
go away from this hearing with any debate about whether or not 
the facts exist as they exist, which is that hundreds of 
grassroots organizations were subjected to an entirely new 
review process created in Washington and inflicted upon them by 
politically powerful people.
    Mr. Jordan. Well said, Ms. Mitchell.
    Ms. Engelbrecht, thank you for coming. Ms. Mitchell, you as 
well. Ms. Gerritson, thank you so much. Mr. Sekulow, I want to 
thank you, too.
    The committee is adjourned.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC] [TIFF OMITTED] T7094.067

[GRAPHIC] [TIFF OMITTED] T7094.068

[GRAPHIC] [TIFF OMITTED] T7094.069

[GRAPHIC] [TIFF OMITTED] T7094.070

[GRAPHIC] [TIFF OMITTED] T7094.071

[GRAPHIC] [TIFF OMITTED] T7094.072

[GRAPHIC] [TIFF OMITTED] T7094.073

[GRAPHIC] [TIFF OMITTED] T7094.074

[GRAPHIC] [TIFF OMITTED] T7094.075

[GRAPHIC] [TIFF OMITTED] T7094.076

[GRAPHIC] [TIFF OMITTED] T7094.077

[GRAPHIC] [TIFF OMITTED] T7094.078

[GRAPHIC] [TIFF OMITTED] T7094.079

[GRAPHIC] [TIFF OMITTED] T7094.080

[GRAPHIC] [TIFF OMITTED] T7094.081

[GRAPHIC] [TIFF OMITTED] T7094.082

[GRAPHIC] [TIFF OMITTED] T7094.083

[GRAPHIC] [TIFF OMITTED] T7094.084

[GRAPHIC] [TIFF OMITTED] T7094.085

[GRAPHIC] [TIFF OMITTED] T7094.086

[GRAPHIC] [TIFF OMITTED] T7094.087

[GRAPHIC] [TIFF OMITTED] T7094.088

[GRAPHIC] [TIFF OMITTED] T7094.089

[GRAPHIC] [TIFF OMITTED] T7094.090

[GRAPHIC] [TIFF OMITTED] T7094.091

[GRAPHIC] [TIFF OMITTED] T7094.092

[GRAPHIC] [TIFF OMITTED] T7094.093

[GRAPHIC] [TIFF OMITTED] T7094.094

[GRAPHIC] [TIFF OMITTED] T7094.095

[GRAPHIC] [TIFF OMITTED] T7094.096

[GRAPHIC] [TIFF OMITTED] T7094.097

[GRAPHIC] [TIFF OMITTED] T7094.098

[GRAPHIC] [TIFF OMITTED] T7094.099

[GRAPHIC] [TIFF OMITTED] T7094.100

[GRAPHIC] [TIFF OMITTED] T7094.101

[GRAPHIC] [TIFF OMITTED] T7094.102

[GRAPHIC] [TIFF OMITTED] T7094.103

[GRAPHIC] [TIFF OMITTED] T7094.104

[GRAPHIC] [TIFF OMITTED] T7094.105

[GRAPHIC] [TIFF OMITTED] T7094.106

[GRAPHIC] [TIFF OMITTED] T7094.107

[GRAPHIC] [TIFF OMITTED] T7094.108

[GRAPHIC] [TIFF OMITTED] T7094.109

[GRAPHIC] [TIFF OMITTED] T7094.110

[GRAPHIC] [TIFF OMITTED] T7094.111

[GRAPHIC] [TIFF OMITTED] T7094.112

[GRAPHIC] [TIFF OMITTED] T7094.113

[GRAPHIC] [TIFF OMITTED] T7094.114

[GRAPHIC] [TIFF OMITTED] T7094.115

[GRAPHIC] [TIFF OMITTED] T7094.116

[GRAPHIC] [TIFF OMITTED] T7094.117

[GRAPHIC] [TIFF OMITTED] T7094.118

[GRAPHIC] [TIFF OMITTED] T7094.119

[GRAPHIC] [TIFF OMITTED] T7094.120

[GRAPHIC] [TIFF OMITTED] T7094.121

[GRAPHIC] [TIFF OMITTED] T7094.122

[GRAPHIC] [TIFF OMITTED] T7094.123

[GRAPHIC] [TIFF OMITTED] T7094.124

[GRAPHIC] [TIFF OMITTED] T7094.125

[GRAPHIC] [TIFF OMITTED] T7094.126

[GRAPHIC] [TIFF OMITTED] T7094.127

[GRAPHIC] [TIFF OMITTED] T7094.128

[GRAPHIC] [TIFF OMITTED] T7094.129

[GRAPHIC] [TIFF OMITTED] T7094.130

[GRAPHIC] [TIFF OMITTED] T7094.131

[GRAPHIC] [TIFF OMITTED] T7094.132

[GRAPHIC] [TIFF OMITTED] T7094.133

[GRAPHIC] [TIFF OMITTED] T7094.134

[GRAPHIC] [TIFF OMITTED] T7094.135

[GRAPHIC] [TIFF OMITTED] T7094.136

[GRAPHIC] [TIFF OMITTED] T7094.137

[GRAPHIC] [TIFF OMITTED] T7094.138

[GRAPHIC] [TIFF OMITTED] T7094.139

[GRAPHIC] [TIFF OMITTED] T7094.140

[GRAPHIC] [TIFF OMITTED] T7094.141

[GRAPHIC] [TIFF OMITTED] T7094.142

[GRAPHIC] [TIFF OMITTED] T7094.143

[GRAPHIC] [TIFF OMITTED] T7094.144

[GRAPHIC] [TIFF OMITTED] T7094.145

[GRAPHIC] [TIFF OMITTED] T7094.146

[GRAPHIC] [TIFF OMITTED] T7094.147

[GRAPHIC] [TIFF OMITTED] T7094.148

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
